<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2012</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                      ENERGY AND WATER DEVELOPMENT

                        APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman

 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         


 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 8

                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                                                                   Page
 Energy Weapons Activities........................................    1
 Defense Nuclear Nonproliferation and Naval Reactors..............  127



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________

         Printed for the use of the Committee on Appropriations




                      ENERGY AND WATER DEVELOPMENT
                        APPROPRIATIONS FOR 2012

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS
                              FIRST SESSION
                                ________
              SUBCOMMITTEE ON ENERGY AND WATER DEVELOPMENT
              RODNEY P. FRELINGHUYSEN, New Jersey, Chairman
 JERRY LEWIS, California            PETER J. VISCLOSKY, Indiana
 MICHAEL K. SIMPSON, Idaho          ED PASTOR, Arizona
 DENNY REHBERG, Montana             CHAKA FATTAH, Pennsylvania
 RODNEY ALEXANDER, Louisiana        JOHN W. OLVER, Massachusetts
 STEVE WOMACK, Arkansas             
 ALAN NUNNELEE, Mississippi         

 NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
Committee, and Mr. Dicks, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
                Rob Blair, Joseph Levin, Angie Giancarlo,
                  Loraine Heckenberg, and Perry Yates,
                            Staff Assistants

                                ________

                                 PART 8
                NATIONAL NUCLEAR SECURITY ADMINISTRATION

                                                                   Page
 Energy Weapons Activities........................................    1
 Defense Nuclear Nonproliferation and Naval Reactors..............  127


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 68-245                     WASHINGTON : 2011





                        COMMITTEE ON APPROPRIATIONS

                    HAROLD ROGERS, Kentucky, Chairman

 C. W. BILL YOUNG, Florida \1\          NORMAN D. DICKS, Washington
 JERRY LEWIS, California \1\            MARCY KAPTUR, Ohio
 FRANK R. WOLF, Virginia                PETER J. VISCLOSKY, Indiana
 JACK KINGSTON, Georgia                 NITA M. LOWEY, New York
 RODNEY P. FRELINGHUYSEN, New Jersey    JOSE E. SERRANO, New York
 TOM LATHAM, Iowa                       ROSA L. DeLAURO, Connecticut
 ROBERT B. ADERHOLT, Alabama            JAMES P. MORAN, Virginia
 JO ANN EMERSON, Missouri               JOHN W. OLVER, Massachusetts
 KAY GRANGER, Texas                     ED PASTOR, Arizona
 MICHAEL K. SIMPSON, Idaho              DAVID E. PRICE, North Carolina
 JOHN ABNEY CULBERSON, Texas            MAURICE D. HINCHEY, New York
 ANDER CRENSHAW, Florida                LUCILLE ROYBAL-ALLARD, California
 DENNY REHBERG, Montana                 SAM FARR, California
 JOHN R. CARTER, Texas                  JESSE L. JACKSON, Jr., Illinois
 RODNEY ALEXANDER, Louisiana            CHAKA FATTAH, Pennsylvania
 KEN CALVERT, California                STEVEN R. ROTHMAN, New Jersey
 JO BONNER, Alabama                     SANFORD D. BISHOP, Jr., Georgia
 STEVEN C. LaTOURETTE, Ohio             BARBARA LEE, California
 TOM COLE, Oklahoma                     ADAM B. SCHIFF, California
 JEFF FLAKE, Arizona                    MICHAEL M. HONDA, California
 MARIO DIAZ-BALART, Florida             BETTY McCOLLUM, Minnesota
 CHARLES W. DENT, Pennsylvania          
 STEVE AUSTRIA, Ohio                    
 CYNTHIA M. LUMMIS, Wyoming             
 TOM GRAVES, Georgia                    
 KEVIN YODER, Kansas                    
 STEVE WOMACK, Arkansas                 
 ALAN NUNNELEE, Mississippi             
   
 ----------
 \1\ Chairman Emeritus    


               William B. Inglee, Clerk and Staff Director

                                  (ii)

 
          ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR 2012

                              ----------                              

                                            Tuesday, March 1, 2011.

                DEPARTMENT OF ENERGY WEAPONS ACTIVITIES

                               WITNESSES

THOMAS D'AGOSTINO, UNDER SECRETARY FOR NUCLEAR SECURITY
DR. DONALD L. COOK, DEPUTY ADMINISTRATOR FOR DEFENSE PROGRAMS
BRIG. GEN. SANDRA E. FINAN, PRINCIPAL ASSISTANT DEPUTY ADMINISTRATOR 
    FOR MILITARY APPLICATION
    Mr. Frelinghuysen. The hearing will come to order. Good 
morning, everybody. Before we get started I would like to 
welcome everyone to the Subcommittee's first hearing of the 
year. There have been many changes over the last several months 
but some faces are familiar and I suspect there will be more 
faces for you to see as the hour goes on, a lot of competing 
hearings this week.
    Mr. Pastor, it's great to be working with you again. Thanks 
for being a good friend and ally and partner in the process. I 
look forward to a really good year with you.
    I would also like to extend a special welcome to two new 
members who have yet to arrive but you will see them when they 
come in. Steve Womack of Arkansas and Allen Nunnelee of 
Mississippi. I think those gentlemen will find out that the 
issues this Subcommittee oversees are both challenging and 
incredibly important to the security and well being of this 
nation and we are glad to have them as part of our committee.
    As we begin our Fiscal Year 2012 hearings, I do want to 
commend to the attention of my colleagues on this Subcommittee 
as well as each Department and Agency official that will come 
before us in the upcoming weeks to review their Fiscal Year 
2012 budget requests, that it is highly unlikely there will be 
any new funding in Fiscal Year 2012 for our subcommittee. In 
fact, the committee was just tasked with finding $3.5 billion 
in savings from existing programs for the remainder of Fiscal 
Year 2011 and that's what we delivered in the House approved 
Fiscal Year 2011 Continuing Resolution. I expect our task will 
be as great if not greater in Fiscal Year 2012. Our committee 
must do its part to reduce federal spending and our huge 
Federal deficit.
    So in short, resources will be constrained, even for the 
most essential of activities under our jurisdiction. The issues 
we will review and discuss today and in future hearings must be 
considered in that context.
    To the task at hand, we have before us three professionals 
who have dedicated themselves to ensuring a safe, secure and 
reliable national nuclear stockpile and what we commonly refer 
to as the nuclear ``enterprise''.
    The first of these is well known to us, Thomas D'Agostino, 
Undersecretary for Nuclear Security and NNSA Administrator. He 
has served Republicans and Democrats and we have full 
confidence in your abilities. We also know that you attended 
the Naval Academy of which you are rightly proud and once a 
submariner, always a submariner, sir.
    Also Donald Cook as Deputy Administrator for Defense 
Programs has had wide experience running similar programs in 
the UK and many years of service at Sandia. We welcome you as 
well, Dr. Cook.
    Brigadier General Sandra Finan, Principal Assistant Deputy 
Administrator for Military Application. Thank you for your 
distinguished career in the Air Force and thank you for being 
with us this morning.
    And of course we look forward to your remarks.
    Mr. Administrator, as you surely noted in our recent House 
action on the Fiscal Year 2011 Continuing Resolution, your 
program was the only program under the jurisdiction of this 
subcommittee that was ``held harmless''. And for good reason.
    That said, I am aware that the Administration's request for 
Fiscal Year 2012 for Weapons Activities asks for a substantial 
increase. Compared to Fiscal Year 2010, this request is $1.2 
billion, or 20 percent higher. Mr. Administrator, in the fiscal 
environment that we are now facing, that request is very 
unlikely to be met.
    Mr. Administrator, I promise you a fair and thoughtful 
hearing, but with the proviso that new resources will not be 
available unless they come from other existing accounts. No 
account in this request will be spared and you will have to 
ensure that we understand the need for every dollar you 
request.
    And so I end my remarks there and I am pleased to turn to 
Mr. Pastor for any remarks he may wish to make.
    Mr. Pastor. Good morning, Mr. Chairman, and good morning to 
the other members of the Subcommittee. I look forward to 
working with you and the Subcommittee members on the issues we 
will discuss today.
    Mr. Administrator, welcome again. Good morning to the three 
of you. It is good to see you before the Subcommittee again. 
Dr. Cook and General Finan, welcome. We are all looking forward 
to your testimony.
    As the Chairman mentioned, this is the second consecutive 
budget request for weapons with a large increase, intended to 
ensure the safety, reliability and security of our nuclear 
weapons stockpile. We have supported the President's commitment 
to complex modernization as evidenced by the inclusion of the 
anomaly for weapons in the existing CR at the President's 
request.
    I look forward to hearing your justification for this 
budget today. As you are discussing the 2012 budget, I would 
also like for you to address how the recently passed House CR 
will impact your plans.
    I join the Chairman in believing that the NNSA must provide 
this Subcommittee detailed information on how you plan to 
execute this expanded program. In these challenging budget 
times it is incumbent upon all of us to ensure that the 
taxpayers' hard earned dollar is used efficiently and 
effectively, and thank you, Mr. Chairman for the time.
    I yield back.
    Mr. Frelinghuysen. Thank you, Mr. Pastor. Mr. D'Agostino, 
welcome. Thanks for being with us.
    Mr. D'Agostino. Thank you, Mr. Chairman, Ranking Member 
Pastor, members of the Committee.
    I look forward to addressing and the opportunity of 
addressing the Committee today and to discuss the investments 
the President has proposed in the future for our nation's 
nuclear security enterprise.
    I would like to begin by thanking the two of you for your 
continued support for the Department of Energy and the National 
Nuclear Security Administration. Our 35,000 employees, men, 
women working hard every day, across our enterprise to keep 
their country safe and secure, protect our allies, and enhance 
global security. We could not do the work we do without the 
support of the Committee and all of you, all the members, and I 
do greatly appreciate it.
    I come before you today to discuss the President's 2012 
budget request. That request seeks to make critical investments 
in the future of our nuclear security enterprise and to 
continue the recovery path that started last year.
    Despite the challenging economic times facing our country, 
President Obama requested $11.8 billion for NNSA up from $11.2 
billion in the 2011 request. This is the second consecutive 
year in which he has requested increased resources for our 
program, which reflects his commitment to our mission.
    As I see it, the budget request can be broken down into 
three key themes: first, we are investing in our future. This 
budget request reflects the President's--President Obama's 
commitment made last November to invest more than $85 billion 
over the next decade to assure the safety, security, and 
effectiveness of our nuclear stockpile and to modernize the 
nuclear security infrastructure and revitalize the science and 
technology base that supports the full range of our nuclear 
security mission. It provides $7.6 billion for our Weapons 
Activities Account to support our efforts to leverage the best 
science and research in the world to maintain our deterrent and 
modernize the infrastructure that supports the deterrent. This 
will enable us to enhance surveillance activities of the 
stockpile, proceed with key life extension programs on the B61 
and the W76 and W78 warhead systems, and to continue to design 
the uranium processing facility at Y-12 and the chemistry and 
metallurgy research replacement facility at Los Alamos 
Laboratory.
    These two facilities are critical to maintaining the 
nation's expertise in uranium processing and plutonium 
research. Investing in a modern nuclear security enterprise is 
critical to our stockpile stewardship program but it also 
supports our full range of NNSA nuclear security missions, 
which brings me to the second theme in this budget request, 
which is implementing the President's nuclear security agenda.
    President Obama has made strengthening our security--
nuclear security, and the nuclear nonproliferation regime 
around the world one of his top priorities. As he said in his 
speech in Prague in April 2009, ``The threat of a terrorist 
acquiring and using a nuclear weapon is one of the most 
immediate and extreme threats we face.''
    This budget request makes the investments needed to 
continue to implement the President's nuclear security agenda.
    In addition to the $7.6 billion investment in modernizing 
our infrastructure and maintaining the deterrent, this budget 
request provides $2.5 billion in fiscal year 2012 and more than 
$14.2 billion over the next five years for nuclear 
nonproliferation programs.
    To power the nuclear Navy, the budget request includes more 
than $1.1 billion for NNSA's Naval Reactors Program, an 
increase of 7.8 percent over fiscal year 2011 at the 
President's request. These--as I understand, we will be able to 
have the opportunity to discuss these in our hearing tomorrow, 
sir.
    These are all critical investments of the nuclear security 
agenda defined by the National Security Strategy and in the 
Nuclear Posture Review.
    Mr. Chairman, we recognize that this request for increased 
investments in nuclear security enterprise comes at a time of 
acute financial challenges for our nation and we recognize the 
need to be effective stewards of our taxpayer dollars.
    That brings me to our third key theme outlined in this 
budget request and that is our commitment to improve the way we 
do business and manage our resources, including the budget 
resources, our people, our projects, and our infrastructure. 
Mr. Chairman, I realize that you and the Ranking Member and all 
members of this committee have many competing requirements, and 
while I believe that nothing is more important than our shared 
responsibility to ensure our nation's security, I also 
recognize that it is my responsibility to assure you that we 
can manage those resources wisely.
    We can and we must do better and continue to improve, which 
is why we are working with our management and operating 
partners to streamline our government's model to devote more 
resources to critical mission work and to maximize our ability 
to complete our mission safely and securely and to do it cost-
effectively.
    We are making sure that we have the right contracting 
strategy in place. We are improving our project management by 
ensuring we have qualified project managers leading our major 
projects, setting costs and schedule baselines on our 
construction projects only when the design work is 90 percent 
complete, then subjecting those estimates to rigorous, 
independent reviews and placing renewed focus on our 
organization for project management. That is why we recently 
created a new policy and oversight office for managing major 
projects that report directly to me. This will help ensure that 
the project management gets the high level focus it deserves.
    We will continue to find innovative ways to save money 
across the enterprise. Take, for example, our supply chain 
management center. It's managed largely out of the Kansas City 
plant but implemented across the whole enterprise. Since 2007 
it has used new technologies, and pooled purchasing power, to 
drive efficiencies across our enterprise, to operate more as an 
integrated enterprise. We have saved, as a result of this, over 
$213 million in the past three years alone. We think those 
savings will increase.
    All of this is part of our effort to create one NNSA, a 
true partnership between our programs and all the partners we 
need to fulfill our mission. We must breakdown stovepipes, work 
collaboratively across our programs and organizations, make 
sure headquarters organizations, site office organizations, 
contract organizations are coordinated and leveraging all of 
our resources. Taken together, these steps will ensure that we 
have a modern, 21st century nuclear security enterprise that is 
smaller, smarter, more secure, more efficient, and organized to 
succeed, an enterprise that can address the broader security 
needs that the nation requires. While also realizing positive 
results, last year our Kansas City plant won the Malcolm 
Baldrige Award. Since October two NNSA projects have won 
separate Project Management Institute awards and one of them 
has become the first federal project ever to win the PMI 
Institute Distinguished Award. That has never been awarded to a 
federal agency until just recently in the last few months. That 
is the vision that we have outlined in this budget request and 
it supports the full range of missions. More importantly, it 
invests in the infrastructure, the people, the science and 
technology required to fulfill those missions. We look forward 
to working with the members of the Committee. At that, I would 
be happy to take any questions you may have. Thank you.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Frelinghuysen. Okay, thank you. I am going to take five 
minutes and then I am going to turn to Mr. Pastor and then 
after Mr. Pastor, Mr. Rehberg, so I am not going to take too 
much time. Mr. Alexander? Okay, well, in order of arrival, I 
guess that is the way we will do it.
    Okay, first question, Mr. Administrator, there is more than 
a little bit of confusion regarding what the Administration has 
actually pledged to modernize in the nuclear security 
enterprise over the next several years. For instance, the 
Administration announced last year that it would be requesting 
approximately $9.2 billion through 2017, more than a baseline. 
But in your written testimony, some of which you have gone 
through, you only refer to a commitment to invest $85 billion 
over the next decade.
    In any case, they are huge numbers, but this is the most 
critical responsibility of the Department of Energy. I would 
like to take a moment to drill down into what you are really 
asking for and why.
    Now, in your planning, what will the infrastructure and 
stockpile look like 10 years from now?
    Mr. D'Agostino. In our broad based planning--and some of 
the details are classified, so I will keep it focused at, 
obviously, the unclassified level--our desire is to meet the 
commitments of the New START Treaty which is 1,550 
operationally deployed warheads and, obviously, in order to do 
that it requires us to finish the production work that we are 
currently underway on with the W76 warhead, which comprises a 
significant share of our nation's deterrent. That will take us 
to the 2017 timeframe.
    The next piece of that will be work on the B61 warhead, to 
do the detailed engineering and design--production engineering 
and design work that is required over the next few years in 
order to start that production cycle on the B61 in 2017 and 
refurbish a small set of those warheads.
    And then the third major piece is to focus on starting the 
study on the W78 warhead, which is a warhead we know will need 
some attention in about a 10-year timeframe, will need to be 
having some replacements put forth on it.
    But our overall approach, essentially, for our 
infrastructure is to get--frankly get smaller, to get more 
focused, and to have fewer places around the country where the 
same thing is being done. Maybe an example might be the best 
way to move forward.
    And I would ask Don, when I am done, maybe to add to that 
if it--an example would be, in the past, plutonium, for 
example, right now there are two places in the country that 
work on plutonium, one at Los Alamos and one at Lawrence 
Livermore Laboratory. The nation really only needs one 
capability, we do not need two capabilities. Having two 
capabilities drives up costs because I have got to maintain two 
sets of expertise across two different geographic locations, I 
have got to provide security over two geographic locations, and 
because we are migrating to a smaller stockpile and a more 
focused stockpile, as the President said, we are going to take 
care of that stockpile. Instead of having two, what I would 
say, older plutonium capabilities, we would rather have one 
smaller capability and we are going to put that up at Los 
Alamos.
    We estimate, for example, on security costs alone we would 
save $30 million a year at Lawrence Livermore and not only 
that, get plutonium further away from the community that 
happens to be growing around that laboratory.
    So, we envision a smaller enterprise. When we first 
embarked on this vision a few years back we had this idea of 
taking the 36 million square feet of infrastructure that we 
have at the NNSA and taking about 9 or 10 million square feet 
off of that. So, we think we are going to go down to about 25 
or 26 million square feet of infrastructure as a result of 
eliminating these types of redundant capabilities, and I have 
given just one example in plutonium.
    There are other examples in the areas for sled--for, 
example, in sled tracks, that we used to--all of our 
laboratories used to have sled tracks. We are going to focus 
that look at Sandia, and operate more as an integrated, 
interdependent nuclear security enterprise instead of eight 
separate geographically independent entities, and that is kind 
of our vision, that is where we need to go to this one NNSA 
theme, is operating and working together. The supply chain 
management example that I used in my oral statement is a very 
specific example of how we have said, instead of having eight 
separate unique procurement organizations going out there 
buying stuff on their own, we are going to work together as one 
organization to try to drive our costs down.
    It is a model that can be applied across procurements, 
human resources, financial management and the like. It can 
actually cut across----
    Mr. Frelinghuysen. And contracting, right?
    Mr. D'Agostino. And contracting, sir, as well. This is one 
of our elements of our contracting. We are examining very 
closely the idea of combining contracts between Pantex and Y12. 
They are currently managed both by the same contractor. There 
are some significant efficiencies we can look for in pushing 
that together. As Don knows, we have just received our final 
set of public input on that and we are fixing up a proposal for 
me to present to the Secretary and we will be making a decision 
before----
    Mr. Frelinghuysen. You said in your remarks, ``The Agency 
is improving its project management by, for example, ensuring 
that NNSA no longer sets costs and schedule performance 
baselines on construction projects until design work is 90 
percent complete ensuring it has the right leadership teams in 
place and by performing independent cost reviews.''
    Mr. D'Agostino. Yes, sir, and this request specifically 
goes forward in implementing that. For example, in the FY12 
budget request that we have before us, we are looking to do two 
things simultaneously, one is reduce the size of our overall 
federal workforce by a bit from 1940 full time Feds to like a 
number in the 1928 range, and then adding 56 project management 
professionals to work on the uranium processing facility, the 
chemistry and metallurgy replacement facility, and the fissile 
material disposition work we have down in the state of South 
Carolina in MOX and PDCF, but these would be limited term, in 
other words, these would be experts that would come in from the 
outside, they are highly trained project management experts. 
When the project is done, then the work is done.
    Mr. Frelinghuysen. You have got huge costs associated with 
all of this.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. So, we are confident that hopefully you 
can get some of those costs under control.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. Dr. Cook.
    Mr. Cook. Yes, if I could add some specifics to what the 
Administrator said. One of the issues that we had at Los Alamos 
some years ago there was, for security purposes, a need to 
relocate reactors that were at tech area 18. Those have now 
been relocated to Nevada in the Device Assembly Facility there, 
but we have a criticality experiments facility that is coming 
up has passed most of the requirements to be fully on line and 
so that security past issue has been resolved and at the same 
time we've made investments in Nevada to maintain the work that 
is required for a wide range of national security purposes 
there.
    At Y12 we are focused on footprint reduction. Each 
retrieval facility is fully in place. It has been loaded, we 
have already done some consolidation and a second key part of 
that is the uranium processing facility that would replace many 
of the capabilities that we have in Y12.
    To address your question specifically, you said 10 years. 
It is '11 now, so by 2021 we intend to have the nuclear 
facility structures in place both for UPF and CMRR and we have 
engaged the M&Os and their parent companies in doing 
interactive planning to put the equipment in place at the rate 
that it's needed to meet the B61, W78, and follow on W88 
requirements to the services.
    Mr. Frelinghuysen. Getting back to my original--is $9.2 
billion the right number to get us there?
    Mr. D'Agostino. The 9.2----
    Mr. Frelinghuysen. And will that amount be enough to fully 
implement the NPR?
    Mr. D'Agostino. Well, yeah, if the $9.2 billion is a subset 
of the $85 billion, yes, it is an increment above what we--if 
we went back two years and looked at our FY10 or FY09 budgets, 
we were on that wrong trajectory, you know, over 10 years that 
number added up to over $64 billion.
    Mr. Frelinghuysen. You have mentioned certain major 
investments in there----
    Mr. D'Agostino. Yes, that is in there, sir.
    Mr. Frelinghuysen. Are there any others that are not 
included in that figure, or that you know about. Then I'm going 
to turn to Mr. Pastor, but--if you can give us some more 
clarity?
    Mr. D'Agostino. Sure, they are all included in the 
planning, in fact, we have an integrated priority list. We have 
driven some further integrated planning and formality into the 
process, so in the long-term planning that we articulated in 
both the 3113 and 1251 reports with a 20-year and a 10-year 
horizon, specifically you can see project by project and the 
time in which they would be done.
    A sizable one is the High Explosives Pressing Facility at 
Pantex that we need not only for the later stages of the W76 
full build, but to prepare for the B61 and follow on to W78. I 
think those are the big ones. We can comment more as you wish.
    Mr. Frelinghuysen. I am looking forward to visiting Pantex. 
I tried to get there. I apologize.
    Mr. D'Agostino. Looking forward to that visit.
    Mr. Frelinghuysen. Mr. Pastor.
    Mr. Pastor. Thank you Mr. Chairman, in 2009 GAO issued a 
report and they had four recommendations which dealt with the 
life extension program. And basically I think in that report it 
said NNSA and DoD were not effectively managing costs or 
schedules or technical risks for the B61 or W76, and so they 
recommended to you four specific actions for both schedules.
    I guess the first question is, were those recommendations 
realistic? And if they are, have you followed them? And where 
are we today?
    Mr. D'Agostino. Not recalling the specifics from a few 
years ago on the exact recommendations--if I recall----
    Mr. Pastor. One of them--address technical challenges while 
meeting all military requirements, that was one.
    Mr. D'Agostino. Right.
    Mr. Pastor. Build in time for unexpected technical 
challenges that may delay the program. Assess the cost and 
include funding in the baseline for risk mitigation activities 
that address the highest risk to the W76 future life extension 
programs, and before beginning a life extension program, assess 
the risk, cost and scheduling needs for each military 
requirement established by DoD.
    Mr. D'Agostino. I will answer it and then Don can follow 
up.
    Mr. Pastor. Sure.
    Mr. D'Agostino. Yes, from my standpoint those specific GAO 
items have been addressed and that is what we are incorporating 
into--as we look at life extensions out in the future.
    An example probably would be--help again in this case to 
give you some idea of what that means. When we looked, we 
internally in the executive branch, particularly most recently, 
we looked at what drives the costs of our--what is driving the 
request that the NNSA is putting forth to the President and how 
do these things get traded off, which is a key point you 
brought up in one of the GAO recommendations.
    So, we looked at that and with OMB we decided, you know, 
let's get together with the Defense Department and make sure we 
understand so we can evaluate tradeoffs internally so we do not 
add cost drivers into our programs over the next five years 
that we may not need, because it does end up coming back to the 
Defense Department relationship with the NNSA.
    So, we spent--we had a Nuclear Weapons Council session--a 
couple of Nuclear Weapons Council sessions last fall to examine 
a couple of key pieces on, for example, numbers of W76s we were 
processing in a given year. Should the number be X or should 
the number be X plus what we originally thought it was going to 
be, which--and then we decided with the Defense Department as a 
result of that session is to go with the lower number when they 
realized that--because they wanted this number that it drove up 
costs by a certain amount of money, they said, well, maybe we 
do not need to go on that kind of a pace. Let's go on a slower 
pace.
    And that same type of philosophy we used on the W76 
warhead, we used that same type of philosophy on the B61 
warhead, and we used that same type of philosophy in examining 
our approach for the W78/W88 study that we would like to do.
    So, I think, since--I believe it has gotten better as a 
result of the GAO recommendations, and in particular, of the 
Administration working as a more integrated unit in this area. 
I have had the opportunity over the last four years, in the 
Nuclear Weapons Council, to see a couple of different models 
and it is largely driven by the Chairman of the Nuclear Weapons 
Council, who is Mr. Ash Carter--is our current chairman. So, 
this Chairman is absolutely committed to looking at ways to 
integrate our costs, understand what drives costs in order to 
push things forward.
    And it is that same model we are using, actually, to 
examine these two large construction projects that we talked 
about earlier, the uranium project and the plutonium project, 
because we recognize that to get--you know, that it has to be a 
sustainable, reasonable approach, and executable, and we want 
to understand what DoD requirements drive our costs. That 
particular study is under way for these line item projects.
    Don may have, if I could, ask you to provide a little more 
detail.
    Mr. Cook. Sure, let me comment on some of the response to 
recommendations.
    The W76 had a number of, basically, early life issues in 
getting ready for the full build and we are now in full build 
that required Sandia and the Kansas City Plant to work closely 
together, and they did that.
    For the B61 we're taking a fairly formal project approach, 
these life extension programs we treat as projects, an element 
to deal with technology risk is to use the old NASA approach of 
technology readiness levels. They are being made quantitative. 
We will require that things be at the sub-system level, 
operated in a relevant environment before we commit to 
production, and that is a technology readiness level of 6.
    There are associated earlier levels but following through 
on that formally is important.
    A key element that we have found is that there had been 
issues in, I will just say, a lack of infrastructure funding 
over a number of years that were popping out as problems that 
were coming up in the life extension programs. So, you will 
notice in the President's request for 12, while the increase 
for weapon systems is 4.8 percent and for science, say, about 
3.1 percent, the request for infrastructure is 21 percent. That 
fundamentally goes to the core of the kinds of issues that were 
addressed in the GAO report and with which we are familiar.
    The W78 and 88 study that we hope to undertake and the 
request has been made will look at cost reduction possibilities 
that may come with commonality, with adaptability to two 
different missile systems, and with interoperability in the 
land based ICBM fleet and the sea based SLBM fleet.
    Again, those we treated as projects.
    In terms of the reporting level, most of the work has been 
in the field, and so the restructure that we have done for the 
site office managers, to elevate their reporting level, they 
now report directly to my office in Defense Programs, and that 
means that they are tasked and they are held accountable for 
site oversight in the same way, that the key program leaders 
and the LEPs----
    Mr. Frelinghuysen. How had they been reporting prior to 
that?
    Mr. Cook. One level down.
    Mr. Frelinghuysen. Okay.
    Mr. Cook. To one of the units that reported to Defense 
Programs. And lastly I will comment that we have in place a 
national work breakdown structure now that we have undertaken 
and are fully in the step of populating a modern tool, we call 
it EPAT, or the Enterprise Performance Assessment Tool. It is 
standardized software but applied to our business.
    Mr. Pastor. Just one more question. Two barriers you have 
are personnel and infrastructure and you are trying to replace, 
or at least extend, an infrastructure that has been involved in 
the life extension of weapons. As you know, dealing with one 
particular weapon takes time because of risk factors----
    Mr. Cook. Right.
    Mr. Pastor [continuing]. Including the infrastructure you 
have in place, and also the training or expertise of the people 
who are doing it.
    Mr. Cook. Right.
    Mr. Pastor. I think one of the circumstances you are facing 
is that your personnel is now getting older in terms of 
retiring----
    Mr. Cook. Yes, sir.
    Mr. Pastor. So, that is one issue. If you want to increase 
the life extension of some of these weapons you are going to 
need additional people----
    Mr. Cook. Yes, sir.
    Mr. Pastor [continuing]. And they will need to have the 
expertise and the experience to be able to do it effectively, 
but the infrastructure that you have is old. Because of the 
nature of the work you are doing, it is very difficult to 
replace it or expand it. So, I believe that you have major 
problems in working with at least those two issues because in 
some of these labs, I do not know how old some of this 
infrastructure is, it is a very delicate type of infrastructure 
and to replace it, it is going to take a major effort.
    Mr. Cook. Mr. Pastor, you have that exactly right. 
Personnel and infrastructure are two key areas. What we have 
learned about our personnel is that they want to do work, 
actual physical work on the stockpile, work that the country 
cares about, work on the nuclear security missions we have 
across the NNSA, to include nonproliferation. It is exciting 
work, they absolutely want to do it.
    What we have with the Nuclear Posture Review, I believe, 
committedly believe, is a very defined path for the future. We 
have the New START Treaty, which identified the size of the 
stockpile the country needs, we have a Nuclear Posture Review, 
which is a road map or plan, on how we need to move forward. We 
previously had NPRs but we did not have what I would call kind 
of a national consensus behind the Nuclear Posture Review.
    And I think there is large agreement by many, on both sides 
of the aisle, as well as inside of government and outside of 
government that now is the time to invest. And so the personnel 
actually have quite energized the older folks, like myself and 
older are quite energized that, hey, we have got a path 
forward, we know there is a defined set of work that has to get 
done, and so there is an opportunity to take those people that 
have those skills and expertise and marry them up, if you will, 
with our next set, a future generation of nuclear security 
experts, to do this work for the next 10 years.
    I think we have, kind of, one good opportunity to really 
put that in place in this upcoming 10 years. This is a pivotal 
year, a pivotal set of years for the enterprise. If we miss 
this opportunity, I believe, we will have a more--the ability 
to recover is going to be difficult.
    Infrastructure, you are absolutely right, some of it dates 
back to 1952, particularly these plutonium and uranium pieces, 
and that is why we are moving forward with an approach that 
recapitalizes both of those capabilities.
    Because of the way the work is laid out, W76 work is 
largely at Pantex and Y12. The B61 analysis work is largely at 
Los Alamos and Sandia. The W78 work is at Livermore and Sandia. 
We have spread it out, so I think it is manageable, but there 
is a golden opportunity--there is an opportunity before us and 
I think we want to take advantage of it.
    Mr. Frelinghuysen. Thank you. Mr. Alexander.
    Mr. Alexander. Thank you, Mr. Chairman. When Mr. Rehberg 
found out he was not going to get to ask the first question, he 
left. I hope you did not offend him.
    Mr. Administrator, you may yield to the General, but we 
hope, at least I do, that the weapons are loaded and locked 
into place that might be needed to protect our interests if the 
need arises without having to wake a ground crew up in the 
middle of the night to do so.
    A few years ago there was a report released that the media 
got a hold of and led the public to believe that for whatever 
reason a crew was just flying around, for no particular reason, 
unaware that their B-52 was loaded with nuclear weapons. Have 
steps been taken to prevent that from happening again? We want 
the public to know that we know what we are doing--at least you 
all. They know that we do not know what we are doing, but we 
want them to think that the Military knows what they are doing.
    Mr. D'Agostino. Why don't I start? And obviously this is a 
question--the details of the operational questions that the Air 
Force and the Department of Defense would be in the best 
position to answer because I will--my role on the Nuclear 
Weapons Council, General Finan is our representative on the 
working Committee, the Nuclear Weapons Council Standing and 
Safety Committee.
    Below that, what I can say is I have seen a sea change in 
focus on the topic of maintaining and operationalizing the 
deterrent in a way that exercises the components. When you 
don't exercise something, you tend to get a little rusty, and 
when you do exercise something, it tends to sharpen focus on, 
wow, we did not realize that you had that problem, we better go 
work on that particular area.
    My experience in submarine operations, led me to really 
appreciate that in a real way. I know we would always grumble 
when we had to do the fire drill or the collision drill, but at 
the end of the day, because of some real world events, we were 
able to respond, and I think there is the same thing with the 
Air Force. Do you want to add?
    Mr. Frelinghuysen. You have to get your oar in the water.
    General Finan. Obviously, this is an Air Force issue and I 
will tell you having been a part of the things that occurred 
after that flight.
    The Air Force has taken a great deal of time and effort in 
changing their culture, changing the way they do business, 
reemphasizing the nuclear aspects of our mission. They stood up 
a new command, they stood up a new division up at the 
headquarters to focus on nuclear issues.
    So, while obviously I defer to them to answer specifically, 
I assure you, they have taken a great deal of time and effort 
and done a number of things to ensure that that type of event 
does not happen again.
    Mr. Alexander. Well, we certainly appreciate the need for 
operations to take place with loaded weapons and armed weapons, 
but we just hope that the public is not led to believe that the 
pilot did not know that they were on there. That just was not 
real good, it was bad for all of us.
    Mr. Administrator, the GAO has raised concern that you all 
are often unable to determine precisely how much it costs to 
operate and maintain the infrastructure simply because there 
are multiple sources of funding.
    If we are to accept that significant increases by the 
Administration will place the weapons complex on a path to 
sustainment, how are we to understand that the full cost 
associated with your facilities is being looked at and taken 
care of?
    Mr. D'Agostino. Thank you, sir. I am aware of the GAO 
report in this particular capacity and I will tell you the 
actions we have taken as a result of that and then the GAO, 
most recently, has come out with their assessment of our 
progress in that area. I will share some insight on that.
    Don or General Finan, if you would like to follow up.
    Step one is changing our project management policy. The way 
we go about, in the Department, implementing our projects, and 
it has changed significantly. You have heard me mention this 
idea of before we come to the committee and say we know how 
much something costs, we will actually go through and finish 90 
percent of the design work in order to have a better sense of 
what that costs. But that is not enough just to do that. You 
need to have the policy changes also put forth, the idea that 
we would do independent cost estimates at every critical 
decision point in the project, not wait for just the times 
which we were required before which is only do it twice during 
the life of the project, but in each of the four critical 
decision points dramatically increase the review of costs 
associated as the project goes on. But in addition to that, we 
have also decided that independent peer review of our projects 
is critically important, peer review from outside of the 
organization itself, because these people are not beholden to 
pressures that they might feel if they were within the 
organization.
    So, those three things taken together along with a 
reorganization that Don--that we mentioned, which is putting 
forth an oversight and project management organization separate 
from the program, Don runs the program, I oversee that 
particular program that reports directly to me in this 
particular capacity.
    Third element is having the right people. You heard me 
mention about bringing on board limited federal employees that 
are project management experts. That absolutely has to be done. 
The GAO recognized that that was important to do to make 
progress in that particular area.
    And I think from a results standpoint we are seeing some 
early signs that this is yielding some benefit. The two Project 
Management Institute Awards that I mentioned earlier indicate 
particularly for the NIF project which started off 10 years ago 
with a major problem, for the last 10 years, has been, from a 
construction standpoint, has been delivering consistently from 
that standpoint.
    The one thing also I would mention which is important is 
the right federal oversight. We have quite a few changes 
internally, bringing in folks and expertise from the Office of 
Management and Budget that understand how to track and link 
budget formulation to budget execution, and that is the piece 
that we did not have before which is the piece that Don is 
bringing into his organization.
    Don, did you want to add anything?
    Mr. Cook. Sure, a couple of quick points. The Defense 
Programs restructure that I did over eight months ago put in 
place a new unit that is actually called infrastructure and 
construction, and that is where we are building the capability 
and the excellence on the operational side.
    The area that the administrator and deputy administrator 
have changed is the oversight in the policy, both of these are 
required and must work together. At a practical level from the 
GAO report, what they understood and what we understood was 
each of the M&Os has a fairly robust financial system but they 
are not identical and we did not have a method of taking the 
financial information in a step-by-step way and putting it 
together, so the way we addressed that correctly is back to put 
in place a national work break down structure that has 
definitions that are agreed to by all and then a methodology 
which is populated by the M&O financial systems, but it puts it 
into a government format that we can use to report to both 
authorizing and appropriations committees in the House and 
Senate.
    Mr. Alexander. We would appreciate it if you would not use 
that word, ``robust financial system.'' That does not set with 
the public too well. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Olver.
    Mr. Olver. Mr. Chairman, I appreciate you taking me, but I 
think that said you were going to take people in the order that 
they appeared.
    Mr. Frelinghuysen. All right, well, I will take that back. 
Mr. Nunnelee.
    Mr. Nunnelee. I yield to Mr. Olver.
    Mr. Frelinghuysen. Mr. Olver, back to you, then we go to 
Mr. Womack. Your long distinguished service puts you up front.
    Mr. Olver. Thank you Mr. Chairman. Thank you for your 
testimony, all of you, and all of you for your service. I 
mainly want to try to understand context here. You mentioned, 
Mr. Administrator, that part of the reason we are doing some of 
the things we are doing is because of the New START Treaty. The 
New START Treaty takes us down to 1,550 warheads? Is that 
correct?
    Mr. D'Agostino. Operationally deployed, you are right, sir.
    Mr. Olver. How many do we have deployed at the present 
time?
    Mr. D'Agostino. Right now operationally deployed, we are at 
about 2,200 operationally deployed. To be clear, there are 
warheads that we need to maintain back here, if you will, to 
make sure those operationally deployed are fully ready. So, we 
have to take care of two types of war buckets, warheads.
    Mr. Olver. And what happens to those other 700 or 
thereabouts?
    Mr. D'Agostino. The operationally--the 700 that are not 
operationally deployed that, you know, if you will, takes us 
from 2,200 down to 1,550, the details do matter in this 
particular case and I would be happy--it would be classified, 
but we can show you specifically. We put together a 10-year 
plan, a very detailed 10-year plan, and a slightly less 
detailed 20-year look ahead on numbers of warheads by year, by 
weapons type, and in many cases--in some cases the warheads--
elements of those 700 go back into what we--what could be 
euphemistically called the reserve stockpile, if you will----
    Mr. Olver. But these are all old?
    Mr. D'Agostino. These are--some of these are old, some of 
these are very old, and some of them were taken apart. A number 
of those----
    Mr. Olver. The details, maybe. I do not have but five 
minutes here. Your answer is going to take me beyond five, I 
think.
    Mr. D'Agostino. Well, what may be best, actually, is to 
come in and give you a classified brief with the details, 
because some of those 700 actually we will take apart, will 
become decommissioned never to be used again. Some of them, 
because they are of a specific type of warhead, we will 
actually keep as a reserve.
    Mr. Olver. And all of the ones that you are talking about 
are new weapons, I heard B61, maybe I didn't get--a W78 and so 
on, are all of those related to the 1,550?
    Mr. D'Agostino. Yes, sir. Yeah.
    Mr. Olver. And you are taking whatever are the warheads 
which are now obsolete which may go back into a reserve 
stockpile----
    Mr. D'Agostino. Right. None of these are----
    Mr. Olver. Is there much cost involved in taking down these 
700?
    Mr. D'Agostino. We have a line item in our program for 
dismantling warheads, specifically to take warheads apart----
    Mr. Olver. Is it included in the 11.78?
    Mr. D'Agostino. 11.78?
    Mr. Olver. The 11.78----
    Mr. D'Agostino. Oh, yes, sir. It is.
    Mr. Olver. Is that considered a Nunn Lugar activity?
    Mr. D'Agostino. Well, some might consider it that though it 
is not specifically called that, no. It's cooperative threat 
reduction.
    Mr. Olver. Is that included in this 11.78?
    Mr. D'Agostino. Yes, we have a cooperative threat reduction 
program in effect in our nonproliferation activities. We have 
$2.5 billion that we are asking for nonproliferation work out 
of the overall NNSA budget request. Elements of that $2.5 
billion do go off to protect and consolidate nuclear material 
around the world.
    Mr. Olver. I am having a hard time making these numbers 
total up. It is $2.5 billion for Nunn Lugar activities? It's 
$7.6, I guess it was, for the regular NNSA activities? There is 
$1.2 for naval reactors. And there is some other item there, 
future nuclear security enterprise, that must, in sum total, 
lead to three, seven, That is $11.2. Is it only----
    Mr. D'Agostino. There is about $450 million that we are 
asking for which is called a Program Direction Account----
    Mr. Olver. Future Nuclear----
    Mr. D'Agostino. No, sir, the Program Direction Account pays 
for federal salaries. We have 1,984 federal employees, which is 
different.
    Mr. Olver. Then I'm not getting to the number for----
    Mr. D'Agostino. I think you actually got it correct, sir. 
You talked about $1.2 billion for naval reactors, $7.6 billion 
for the weapons activities account, $2.5 billion for our 
nonproliferation work, and about----
    Mr. Olver. I am trying really to just get structurally what 
is going on here.
    Mr. D'Agostino. Right.
    Mr. Olver. All right, so then it is in the NNSA's part of 
the Nunn Lugar activities, the Nunn Lugar activities which are 
mostly in Defense, I guess.
    Mr. D'Agostino. Yeah, there is--the Nunn cooperative threat 
reduction work happens across State Department, Defense, and 
NNSA, the National Nuclear Security Administration, which is 
what we are here today talking about, and because----
    Mr. Olver. I am particularly concerned that here we are in 
the President's budget, which you are defending for your 
activities, and he is freezing for five years the budgets in 
discretionary expenditure for all of the non-security agencies, 
and this one is going up by, I guess it's a total over 10 years 
of $85 billion, but it includes, basically, in the one-year 
frame, 5 percent for the weapons activities and 19 percent for 
another group, in your testimony, and a 21 percent increase for 
infrastructure and a 7.8 percent for the Naval Reactors 
Program, all of them are going up. This is just in one year. 
Those are sizable percentages though the total numbers may not 
come to more than a billion dollars in sum total.
    I am concerned about that, because we are making those 
kinds of reductions and there are moves around to make even 
vaster reductions in the five-year. So it is something I think 
we can all understand.
    Sustainability here for this weapons program comes at the 
cost of a lot of other things that go on.
    Mr. D'Agostino. If I could make a comment on that, I think 
it would be important. The work in the weapons activities 
account, this is a specific financial account, supports nuclear 
security work broadly. I will give you some categories: one is 
nuclear nonproliferation, making sure material does not end up 
in the hands of terrorists; one is a nuclear counterterrorism 
program, which provides counterterrorism experts to support the 
FBI and the Defense Department, these would be actually the 
weapons experts, because we do want the nation's best people 
working, God forbid, if there was an improvised nuclear devise 
somewhere on those programs.
    Mr. Olver. Is any of the counterterrorism in NNSA?
    Mr. D'Agostino. Yes, sir. Yes, sir. It is. Absolutely.
    Mr. Olver. But some will be coming out from Homeland 
Security as well?
    Mr. D'Agostino. It is an integrated program. We work with 
the Department of Homeland Security, we work with the FBI, we 
work with the Defense Department, because each of us have 
different authorities. What we have, sir, is the technical 
expertise. The nation's invested, during the Cold War, and most 
recently in the last decade and a half, in making sure we can 
maintain nuclear experts, the best experts in the world, to not 
only take care of the stockpile, the smaller stockpile, but 
also make sure that those experts are available to the agencies 
that have to respond to a nuclear emergency.
    So, we provide the scientists, the engineers, the people 
that say cut the blue wire, not the red wire, these types of--
this type of expertise. And whether the nation has, you know, a 
larger number of warheads or a smaller number--we are talking 
about two numbers, sir--we feel, the President feels, that it 
is important to maintain that expertise because as stockpiles 
change, with a decrease over time, maintaining that expertise 
is going to become even more and more important and more and 
more relevant.
    So, that is our job. That is why the President put forward 
this budget request. We recognize that it is an increase, we do 
stand out in the Administration, but it is an increase that we 
feel is justifiable.
    Mr. Frelinghuysen. Mr. Olver, I can return to you. I want 
to give Mr. Womack a chance. Thank you.
    Mr. Womack. Thank you, Mr. Chairman. Let the record reflect 
that I got here before my colleague, Mr. Lewis. It means I get 
to go before him and it is not because the younger, good-
looking guys go first.
    I'll pay for that later. Last night Secretary Clinton 
called for United Nations to finalize global negotiations on 
its nuclear bomb making material. I have two questions, one 
general and one specific. The general question is: how does it 
affect the work in this budget as proposed? And more 
specifically, how does it affect the weapons modernization 
efforts by your agency?
    Mr. D'Agostino. Okay. I will address broadly, and if I 
could, the General and Don Cook might want to add something to 
that. I was talking about the Fissile Material Cut-off Treaty, 
which is a treaty which looks to get a global agreement to not 
produce more weapons usable--we call it special nuclear 
material, than we currently have. This nation currently 
maintains a--the number is classified, but an amount of 
plutonium and an amount of uranium that it feels it needs to do 
that, and so what we are seeking to do, because an element of 
our program, of course, is to make sure the security is right 
around all this material around the world, is the fewer places 
in the world that have this material, and the less of the 
material that is out there, the easier it is to protect it. I 
mean, it is just that approach.
    Dr. Cook can talk about the impacts of this on the 
specifics, the second part of your question.
    Mr. Cook. Sure. I would say first, given the two materials 
that are special nuclear materials that we use in the weapon 
program, we have largely a closed cycle as far as plutonium is 
concerned. So, when we take weapons apart, we recover the 
plutonium, we purify it, we reuse it in newly manufactured 
weapons.
    Now, the enriched uranium is a different issue. We require 
highly enriched uranium for our weapons systems, and once 
again, that element is a largely closed cycle. The low enriched 
uranium that we use to generate tritium is another issue. It 
requires access to an indigenous source of enrichment to 
continue to both make tritium and to provide capabilities to 
support Naval fuel production.
    So, I think I have addressed the key concern. And we 
certainly are working with the State Department and Departments 
of Defense and Energy on this.
    Mr. Womack. Thank you very much. I will yield back, I would 
like for myself to organize for the classified brief that you 
discussed earlier. I sure would like to have that.
    Mr. D'Agostino. Sure, glad to do that, sir. Be glad to do 
that--provide you with great details.
    Mr. Frelinghuysen. Thank you, Mr. Womack. I would like to 
recognize Mr. Lewis from California who chaired the Overall 
Appropriations Committee and is a valuable member of any 
subcommittee. Mr. Lewis.
    Mr. Lewis. Thank you, Mr. Chairman. Mr. Nunnelee, are you 
sure you--okay.
    The last hearing I was participating in we were talking a 
lot about the importance of coordination between agencies 
within that department.
    Mr. D'Agostino. Right.
    Mr. Lewis. And there we were discussing questions like do 
we capture enough money from people who are producing value 
from mines, et cetera, are we getting the revenue we need to be 
able to implement the enforcement in the territory, should we 
sell property or otherwise?
    The need to communicate between agencies was emphasized by 
me by saying that for the longest time, during my years on the 
Defense Subcommittee, we could not figure out exactly how to 
get the Navy and the Marine Corps to communicate with one 
another. We spent a lot of money and effort developing the 
software to effectuate that.
    Effective coordination and communication could not be more 
important in all the agencies than it is within this task that 
you have----
    Mr. D'Agostino. Right.
    Mr. Lewis [continuing]. And I certainly hope that you have 
the wherewithal as well as the challenge to make sure that we 
are maximizing GIS capabilities, applying software, et cetera, 
so that we can break down the standard barriers that exist 
between, we call them stovepipes, but it is really important. 
If you can communicate effectively with the FBI I want to know 
about it but in the meantime, are you sure that all of that is 
going forward well?
    Mr. D'Agostino. I believe it is going well. I have seen 
tremendous improvements in the last few years. It kind of 
covers across a broad variety of fronts, we have this 
coordinating body called the Nuclear Weapons Council. That 
body, as I described earlier, has taken a very aggressive 
stance on making sure the Defense Department understands if it 
asks for something that it has an impact over here in this 
particular program. And by making sure that all our cards, all 
that information is on the table, we have actually broken 
through a couple of key pieces on that.
    We are starting this process aggressively for these two 
large projects, these are multibillion-dollar projects. The 
Defense Department is keenly interested in reducing the costs 
there. The Secretary and I, as well as Don and the team are 
keenly interested because we recognize that, you know, it is 
first of all our obligation to the taxpayers to do this right, 
but second of all, there has to be something if it is not 
authorized or appropriated, then you are not going to do it. 
And so we have to figure out ways to make sure that we build 
what the country needs and not what the country does not need, 
and something bigger than that point.
    The global information systems that you talked about is 
something that we are implementing in the NNSA to tie together 
to have a common work breakdown structure and common way we 
look at numbers across our enterprise. We are not quite there 
yet. We need to do a lot more in this particular area.
    Don has brought in an individual in his organization that 
was doing this across the Department of Energy to specifically 
apply to this particular area. I believe there is a lot of 
opportunity in that area to get to improve.
    We are not quite finished with what we need to do. Don, I 
don't know if you have anymore to add here?
    Mr. Cook. I would not add that but I point to General 
Finan. The key commission of the Department of Defense, General 
Finan, although new in her term has been traveling with the new 
head of Strategic Command of General Bob Kehlor. She has been 
over at the Pentagon probably half the time in one form or 
another working with both the Navy and the Air Force and 
connectedness there is pretty high. I would ask her if she 
wishes to comment further?
    General Finan. Absolutely. As far as coordination with the 
DoD, that is essentially what I am here for, to make sure that 
the requirements that they have get translated over, that the 
capabilities that the DoE and NNSA has, that they understand as 
well, so that together the two agencies can chart a path 
forward. That process comes together through the Standing 
Safety Committee and the Nuclear Weapons Council when senior 
decision makers can look at both sides of that and chart that 
path forward.
    Additionally I have about 30 officers in the NNSA of all 
the branches of services, so that also helps us with the 
coordination at the Working Group level so that we get that 
communication and coordination at the lowest levels so it works 
its way all the way up the chain. So as far as DoD, we have a 
structured process in place and we also have the informal 
military officers over at the NNSA who also facilitate that 
level of communication.
    Mr. Lewis. Well, across the board of government I cannot 
think of a responsibility where communication is of the highest 
priority, and certainly money pressures should not stand in the 
way of our implementing that.
    Mr. D'Agostino, I am sorry.
    Mr. D'Agostino. Yes, sir.
    Mr. Lewis. You mentioned the labs and we are very proud of 
the work of those labs and their development over time. I have 
been thinking about trying to think through a visitation to our 
labs. A close friend of mine is on the Board of Regents at the 
University of California, and he is interested in joining me on 
such an effort.
    But, Mr. Chairman, I would suggest that we might very well 
have a cross-section of our Committee plan to visit the labs 
and try and get a better understanding of just how significant 
they are to the role we are playing here. So if there is a way 
I can help you implement that.
    Mr. Frelinghuysen. Some of us are on our way out to Los 
Alamos and Sandia and the Nevada Test Site at the end of the 
week and we are trying to make sure----
    Mr. D'Agostino. Are you really?
    Mr. Frelinghuysen. We have not forgotten California.
    Mr. D'Agostino. Well, good for you. Well, I think there is 
an extra seat on the plane, sir, actually.
    Mr. Lewis, I would be happy, of course, to take you to the 
laboratories on your schedule or work with your office and work 
with Rob on the appropriate time, Mr. Chairman.
    Mr. Lewis. I assume that there are facilities there where 
the kind of intelligence briefing we were talking about could 
take place as well.
    Mr. D'Agostino. Absolutely there is.
    Mr. Lewis. There are significant items.
    Mr. D'Agostino. We are planning on talking to the Chairman 
and Mr. Pastor on those specific items this week. And when you 
come out, we would love to do the same for you to give you some 
insight as to how core science, technology, and engineering 
supports the Intelligence Community broadly.
    Mr. Lewis. Mr. Chairman, I apologize for being late. Thank 
you very much. I appreciate it.
    Mr. Frelinghuysen. Thank you very much.
    Mr. Lewis. Thank you.
    Mr. Frelinghuysen. Mr. Administrator, recognizing there may 
be limits to what you can say in this hearing room, will you 
provide for the members some context on how our weapons 
production infrastructure and experimental capabilities compare 
with the Chinese and the Russians? Specifically, we talk here 
about having a capability-based system here, which could 
produce up to 80 new pits a year. How does this capability 
compare to that of Russia and China? And have these countries 
declared, as we have, that they will not produce any new 
nuclear weapons?
    Mr. D'Agostino. Okay. I think the Chairman is absolutely--
there will be some limit as to what I can say, but broadly we 
have decided on a--we in the United States have decided from a 
policy standpoint to approach taking care of our stockpile as 
you described, maintaining capability. And when we need to work 
on the stockpile, we work on the stockpile and the W76 warhead, 
for example, and a B61 are some examples.
    The approach taken by our colleagues in Russia is a bit 
more of keeping their enterprise fully exercised, the 
production enterprise exercised, and cycling systems through. 
It is an approach, frankly, that is, I believe, more expensive, 
but, at the same time, exercises just kind of a full threat in 
a more aggressive way. And that, in fact, that is why the 
approach we were, you know, moving forward in over the next few 
years, pursuing life extensions to modernize these very old 
systems, recapitalizing our infrastructure, investing in 
science is so important because those three things taken 
together will provide that exercising of the workforce that was 
described. We have to exercise the workforce.
    Mr. Frelinghuysen. Are they taking similar steps?
    Mr. D'Agostino. They are actively--the ``they'' in this 
case would be the Russians--are actively pursuing actual 
production operations and have been for the number of years 
while we have both stopped underground testing because we have 
committed as a policy to take care of our stockpiles without 
underground testing. So the Russians have said, well, we are 
not going to stop production. We are just going to take our old 
systems out, rebuild them, and put them back in. We have 
decided instead of recycling a lot of nuclear weapons and 
materials around this country, we have decided we are going to 
take care of the ones we have where they are. And then when it 
comes to the point we actually have to do something, which we 
are at in certain systems, we are going to bring them back, 
work on them, and put them back out.
    The Chinese, I would say, we are a little bit more limited 
in our knowledge there and probably it would not be appropriate 
to go into any great detail.
    Don, did you have anything to add on that particular point?
    Mr. Frelinghuysen. And speak somewhat in generalities here.
    Mr. Cook. The thing that I would add to what the 
Administrator has said is that the investment that the nation 
made, has made in stockpile stewardship capabilities. And this 
exhibit is, for example, in high-energy density physics science 
at the National Ignition Facility at Livermore, the Z machine 
at Sandia. And in hydrodynamics one of the best capabilities, 
the dual-access radiographic hydro test capability at Los 
Alamos, something we call DARHT.
    Mr. Frelinghuysen. I like the acronym. I know the acronym.
    Mr. Cook. DARHT. You know those really address the 
capabilities, respectively, of what we need to understand in 
weapon science without resorting to underground testing. In the 
case of NFIDs what happens in secondaries; in the case of 
DARHTs what happens in primaries. And we put together the 
knowledge with some of the best computational capabilities, 
which is where the researchers put models together.
    We are at the forefront still in all of those areas, 
although, you know, the Chinese supercomputer capability is 
clearly growing, still with American chips, but something we 
monitor all the time, so.
    Mr. Frelinghuysen. So to answer my question, by and large 
we are pretty transparent somewhat with what we do.
    Mr. Cook. I think that is correct.
    Mr. D'Agostino. Yes.
    Mr. Frelinghuysen. But in reality you are not 
characterizing what they have.
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen. So does that mean that we know what they 
have, but we cannot discuss it here? But how would you discuss 
then their capabilities? Are they increasing the capability of 
their weapons and their infrastructure, in a general sense?
    Mr. D'Agostino. In a general sense, yes. In a general 
sense, I believe the infrastructure capabilities are improving. 
Don gave a great example of the Chinese capability with 
supercomputing, which, of course, is not just applications from 
a national security standpoint. It drives innovation and 
technology, which helps economies grow.
    But in the general sense, I believe that what we have is a 
commitment and understanding on the part of these other nation 
states that you need to exercise your workforce and capability 
to maintain it, and that they are being--we obviously talk 
about ours a lot more than is talked about publicly there; that 
in the '90s and earlier part of this century, if you will, 
there was an approach that we undertook which was making sure 
that we stay on top of our science and technology and 
engineering, drive it as best as we can so we can observe what 
is happening with our stockpile, where the Russians would look 
at it, well, that is good, they are going to do a little bit of 
that, but they are also going to actively work on the warheads 
themselves, so.
    Mr. Frelinghuysen. We are obviously proud of what our men 
and women are doing.
    Mr. D'Agostino. Yes.
    Mr. Frelinghuysen. This would be in accord with Mr. Lewis 
at all our laboratories. And sometimes our citizens are unaware 
of what we are doing, the whole need to have reliable nuclear 
weapons and never the thought that they would ever be utilized, 
but, you know, the ability to sign off on what we have, their 
veracity, their ability to be used if we had to, but just in 
the overall context of what the Chinese and Russians are doing.
    Mr. D'Agostino. Yes.
    Mr. Frelinghuysen. Yes. And where are they?
    Mr. D'Agostino. Well, the Chinese are building the--have 
decided to go forward with the process of making sure that they 
have a deterrent. They say it is going to be the minimum size 
that they are going to need to ensure their sovereignty and 
their nation's security. As you rightly mentioned, you know, 
these warheads are not static. Once you build them and you put 
them here, they are not going to stay like that forever. It is 
like your dashboard on your automobile. You set it out and park 
it on the street, 10 years later the dashboard is cracked. 
Well, why does that happen? Well, because the sun is shining on 
it and heating it up.
    But we have components. Our stockpile is safe and secure, 
but these things are not static. General Chilton, who was the 
previous strategic commander, called them little chemistry 
experiments, you know, moving along, and they are, and that is 
why it requires constant surveillance and constant attention. 
And that is why we have asked for increased resources in our 
surveillance area. We will move that number up from about 180 
million up to $240 million per year because we know we have to 
watch these things. They are not static.
    And in our observations, the watching we have been doing 
over the last five years or so dictates to us we need to move 
forward aggressively on our B61 Life Extension Program, move 
forward aggressively on the W78 study because things are 
changing in these systems. They are safe now, but they require 
attention.
    Mr. Frelinghuysen. Mr. Pastor.
    Mr. Pastor. Mr. Administrator, we have invested heavily in 
the experimental facilities over the last few years, and Dr. 
Cook just went through a litany of them: the Z, the DARHT, I 
guess you could talk about the Sequoia.
    Mr. Cook. Absolutely, absolutely.
    Mr. Pastor. And we are trying to find, as you say, the 
chemistry, the physics, the what do we do to ensure that we can 
certify our aging stockpile without nuclear testing. I mean, 
that is the whole intent and so we invested all this money.
    Mr. D'Agostino. Right.
    Mr. Pastor. As I see your Life Extension Program schedule, 
it is, I think, very aggressive. You know, but that is my 
opinion and I think you may want to classify it, too, as you 
want to get on with it. You are slated to make major decisions 
regarding the technology on the B61, the W78, and now I think 
the W88, too.
    I guess the question is about time. Is there sufficient 
time to conduct the experiments and then enough time to 
incorporate sufficient experimental data into the decision-
making? Because sometimes they are not parallel. And as I 
recall, one of the GAO recommendations was you may have to slow 
one down to ensure that the investment you are making pays off.
    And so my question is with all the experimental stuff that 
we are doing and your schedule, which I think is aggressive, is 
there enough time? Have you considered time to implement your 
experimental data to ensure that the Life Extension Program is 
going to be profitable in terms of being efficient?
    Mr. D'Agostino. And the answer is yes, I believe there is 
enough time to do it. And the reason why I believe that is 
because of some of the project systems that we have in place. 
Within the defense programs area the scientists have worked 
together. This is led by the federal managers here that Dr. 
Cook has in his organization to establish what is known as a 
predictive capability framework, which outlines over the next 
10 years the specific experiments, you know, broadly what goals 
and milestones need to be achieved, and then the specific 
experimental schedules, the sub-critical experiments to get the 
data so we can put them into the computers.
    We are actually in a pretty good spot because what we have 
right now, as you have described, is the finishing up of very 
significant investments in building scientific tools. And now 
we are transitioning from building the scientific tools into 
operating the tools, actually conducting the experiments, and 
putting that data into these large computers--the Sequoia, for 
example--to get the data out of it.
    The timing is pretty good in this area. Don, if you might 
want to----
    Mr. Cook. Sure.
    Mr. Pastor. But that is the question. You are doing this 
and I do not know what the timeline is in terms of where you 
have sufficient information from your data you are collecting 
experimentally, but right now you are still aggressively 
working on these weapons systems.
    Mr. D'Agostino. Yeah.
    Mr. Pastor. So right now, as we speak, there is probably a 
weapons system, a pit right now being modified, and yet are we 
going to use the best science and that we have invested so much 
time to do?
    Mr. Cook. If I can answer again with just a few specifics. 
The time scale is aggressive. We would certainly agree with 
that. It is also well planned. So the Administrator talked 
about the predictive capability framework. This is focused on 
codes, understanding the basic data, doing the design work that 
is required.
    We have a counterpart to that now, which is called the 
component maturation framework. This is the one that deals with 
the technology readiness levels that I addressed earlier. And 
it is basically a conscious choice of what we have ready for 
the B61, what we believe we could get ready, and a boundary 
that says we cannot get something ready in time for the B61, 
therefore, we choose not to use it. We continue to advance it 
for the W78 and beyond that for the W88 that follows. We have 
now been integrating that kind of, you know, fairly disciplined 
project planning into the components themselves.
    In the case of the B61, the importance on having the first 
production unit in 2017 is actually driven by the fact that we 
will have to replace the power source, the neutron generators, 
and a portion of the radars anyway. And so we either do that as 
a separate block of activity and then do the life extension 
later or we choose what we can do and we do the life extension 
and the replacement of those components at the same time.
    Mr. Pastor. But once you open it up, though, you want to be 
able to do the best job as possible because you cannot be 
opening and closing things as many times as you want.
    Mr. Cook. Well, that is correct. It is the best job that is 
possible within a defined set of conditions. And those 
conditions are the hardware that we put in must work and the 
first production unit must be completed within 2017.
    For the W78, where we are again driven by some lifetime 
limits, that will follow, but its first production unit does 
not occur until 2021. So we have enough time to do the design. 
We are requesting approval to begin the 6-1 or the conceptual 
drawing study. That will take us the better of a year. And then 
a two-year period for the W78 to do the engineering study and 
the detailed cost assessment. The reason that we have asked, as 
has the Department of Defense, to incorporate the W78 arming, 
fusing, and firing system in that is that is a unit that needs 
to be updated as we did with the W76. And if we do that 
thinking and planning in concert with the W78, we can again 
look at the opportunities to save cost through having common 
features or adaptable features.
    Mr. D'Agostino. It is probably worth describing life 
extensions. There are basically three main steps. We are 
clearly--it sounds like a lot of work and it is, the 76, the 
61, and the 78/88 study, but they are all in different phases. 
The W76 is in the production phase, so that uses up a couple of 
our sites kind of fairly aggressively.
    Mr. Pastor. Which warhead are you waiting for the F35? So 
you have more time on that one.
    Mr. D'Agostino. The B61 is being driven by two things. It 
is in the production engineering phase and that was because of 
these components that failed. That is in the production, 
engineering, and design phase to support the Air Force's need 
for the F35, but also it is driven by the fact that components 
are aging. So that is in actually the production engineering 
phase.
    And 78 is in the study phase, so it uses different 
elements. We are actually fully utilizing all of our pieces, 
but if we have de-conflicted the overlap so that we do not have 
this kind of crisis of two things arriving at the doorstep at 
the same time. And that is kind of how we have our work laid 
out.
    Mr. Cook. Yeah, and what I would say is it is an 
opportunity--there is an opportunity to read the--I am sorry, 
as we go on year by year to update and refine the 12-51 report, 
and that is the one with a 10-year horizon. It talks about the 
detailed nature of what we are doing to each of the weapons 
systems. I----
    Mr. Pastor. Go ahead.
    Mr. Cook. I just think it is a good question. I mean, a 
good question that should we be concerned about all the 
activity we have to do? I would say absolutely, and we are 
managing it and structuring it to make it workable.
    Mr. Pastor. One more question. This deals with, as you do, 
the various experimental studies that obviously you may end up 
with a result or data that says you can do this better in terms 
of whether it be ignition or whatever the fifth component may 
be. But you have a fine line because you really cannot. You are 
required, I guess, by treaties that you cannot cross that line 
because it may be modified as a new weapon. Who is the one that 
makes those decisions in terms of what stays with what is 
proper or what would be certified as a----
    Mr. D'Agostino. Sure.
    Mr. Pastor. Because it is such an improvement that you are 
talking about a new weapon.
    Mr. D'Agostino. Yes, in the end, the Nuclear Posture Review 
provides us very specific guidance from a policy standpoint. 
Our focus is to modernize the existing stockpile. Extend the 
life of our existing stockpile. Put the best technology into 
that existing stockpile in order to do the job it was 
originally intended to do, not design new warheads for new 
capabilities. Okay? So that is kind of--that is the first 
point.
    The second point is we want to make sure our designers, our 
laboratory directors specifically, as they make recommendations 
to the Federal Government, that they are given the opportunity 
to examine all the different ways that they can extend the life 
of that stockpile, but ensure, at the same time, that we drive 
as much 21st century safety and 21st century security into that 
stockpile. I mean, that is a good thing. We want the best 
safety and security in our stockpile. We do not want, you know, 
the seat belts from the 1960s on our automobile of the 2010s, 
right? And so our lab directors have full flexibility to 
provide recommendations.
    If there is a sense that that recommendation would require 
a modification to a nuclear component, a very significant 
modification to a nuclear component that some might construe as 
a new nuclear warhead, we are obligated and all of our 
decisions pass through to the President--to the President--who 
would just make that decision if we decided to move forward 
with what we have called a, you know, a replacement, if you 
will, of that component. In all cases, we are going to stick to 
no underground testing and we are going to use components that 
are based on previously tested designs.
    So, there is a fairly rigorous process in the Nuclear 
Weapons Council for making those types of decisions. Our 
opportunity, if you will, with the B61 work, is to figure out, 
as Don had described, what components are mature enough to 
actually go into that stockpile and then he will recommend to 
me and the Nuclear Weapons Council this is the way we think we 
ought to move forward with this particular system. We will be 
in pretty good shape on that one.
    Mr. Cook. Yes, I have nothing to add to what you said. I 
would add in General Finan's area we have also got a very close 
interaction on all of these LEAPs with the commander of 
Strategic Command and his folks with the Air Force and the Navy 
for systems for which they are accountable and with all of the 
civilian ranks of the Department of Defense, both in the policy 
line and in the acquisition line.
    Mr. Pastor. Thank you.
    Mr. Frelinghuysen. I want to refocus on your funding 
priorities. We are proceeding to construct the UPF at Y12 at 
Oak Ridge. We are doing the CMRR at Los Alamos. These are 
primarily new investments. They are expensive. They will 
continue to be expensive for the foreseeable future. Where are 
they in the overall scheme of things in terms of your setting 
priorities?
    We have existing infrastructure we are trying to maintain 
and modernize.
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen. And they are obviously an essential 
element of life extension.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. But how do you prioritize?
    Mr. D'Agostino. The priority for me, in my view, is to move 
as aggressively into the future as we can. And, you know, 
obviously, as you described, we will have to maintain some 
funding to do deferred maintenance on facilities and to invest 
in some of our old, early 1950s facilities.
    Let me take the plutonium and then talk to uranium.
    Mr. Frelinghuysen. Yeah, please do.
    Mr. D'Agostino. I think you want some specifics.
    Mr. Frelinghuysen. Yes, I do.
    Mr. D'Agostino. Yeah. So on plutonium, we have an existing 
chemistry, metallurgy, and research facility. There are eight 
wings of this particular facility at Los Alamos. And what we 
had been doing over the last few years was getting ourselves 
out of that facility. We are down into essentially our last two 
wings. We have moved all of our operations because it is too 
expensive to maintain the rest of it. And now we are down into 
that last two wings or so that we have to stay there until a 
new chemistry and metallurgy facility comes back online.
    And from my standpoint, I think we have--I would call it 
like squeezing maybe a sponge, if you will. It was a sponge at 
first because we managed to get ourselves out of a lot of that 
space and reduce our costs there. But I cannot go any further 
in that particular area.
    So what we were trying to do is spend, you know, frankly, 
the minimum amount I can, just enough to maintain the safety 
systems in that facility because I would rather have more of 
the resources go towards building a future capability.
    Mr. Frelinghuysen. The existing facility, obviously it has 
to be maintained and protected and so forth.
    Mr. D'Agostino. Yes. But what we have done in the meantime 
is not maintain the whole existing facility. We have actually 
said we are only going to maintain these last wing and a half 
to two wings of capability at Los Alamos, and the rest of it is 
going to go away. We are letting it--we are not maintaining it. 
We have gotten stuff out of it. It is in a safe position, but 
we are not doing--you know, not changing ventilation filters 
and we are not, you know, doing the painting of the hallways 
and so on.
    The same kind of problem we have in the uranium facility 
and capability at Y12. We have a building called 9212. Don is 
very familiar with this facility.
    Mr. Frelinghuysen. And I visited there.
    Mr. D'Agostino. Yes, you visited, I remember that. And then 
what we--that is a little bit more challenging because we 
actually need basically almost all of that 9212 capability 
while the uranium processing facility comes up. So we have a 
risk reduction program that Don can describe some of the 
details on that where, with the Defense Board, we have--and 
looked at--but we have come up with--we looked at a list of 
what do we have to maintain and what investments do we have to 
make on the order of tens of millions of dollars a year that is 
not going to build the new UPF, but is going to maintain that 
existing capability.
    We do have----
    Mr. Frelinghuysen. Maintain and protect.
    Mr. D'Agostino. Maintain and protect. Now, our most 
important is safety to the workers and environment and the 
people in the area. At the same time, we do get into 
differences of opinions with the Defense Board--I think that is 
just natural; technical people will disagree--differences of 
opinion on whether we need to make that investment to do 
whatever it is, and Don may have some examples, or should we 
use that money to build the new UPF. I am always--it is a 
tradeoff. It is something that is fairly dynamic and gets 
managed fairly regularly.
    Don, can you provide some additional insight?
    Mr. Cook. Sure. On a couple of issues, it is important to 
recognize, and we do, that what we need to do, both at Los 
Alamos and at Y12, is construct new facilities, that they are 
new nuclear facilities, that they are replacing facilities that 
are 60 or in one case more than 60 years old, and that we have 
got to meet modern safety and security standards. So the first 
and best way to constrain the cost is not to make them any 
bigger than we have to. That is why the interactive planning 
that we have done with the Department of Defense is so 
important. And we call them capability-based facilities rather 
than capacity-based.
    We structured them so that we could do 50 to 80 primaries 
or secondaries per year in these, but not larger than that. We 
are not betting on the Com; we have an agreement for the future 
of the national deterrent, nuclear deterrent, that we will not 
require something larger.
    The intermediate space, that is the next 10 years, as you 
mentioned earlier, sir, is the one that we are structuring to 
live through, and we must. And when it comes to discussions 
with the Defense Nuclear Facility Safety Board the key issue in 
their mind is, is the schedule going to wander? You know, if it 
wanders and it is not trustable, if we cannot make the 
commitments, then they will say we need to make more investment 
in the current and old facilities. That is not a very good 
economic bargain. The better bargain was to put in place a 
schedule and execute the schedule.
    Something we have done in the past nine months to enable 
remember that and make it more probable is the management and 
operations entities have big companies and several are big 
nuclear builders; Bechtel and BWXT [phonetic] are two. They are 
in both of our sites. We have asked them to help us with the 
options: the learning, the planning, the deep integration, and 
to phase these projects in such a way that CMRR would lead and 
UPF would lag, but not by more than 24 months so that we can 
really apply the lessons learned.
    And I mentioned earlier that the nuclear structures would 
be in place in 2020--the comment was 10 years--so they will be 
in place in 2021. But the planning right now for implementation 
of the tool sets and the people and the technologies, we are in 
the guts of that. And so 2023, we intend to be fully in 
operation at the new CMRR in 2025.
    Mr. Frelinghuysen. What is the role of this ominous group, 
the CAPE? What are they doing relative to both of these 
facilities? Maybe even go through that acronym so everybody 
knows it.
    Mr. Cook. Sure, sure. It is a DoD entity. Neile Miller, the 
Deputy Administrator to the Administrator sitting behind me, 
has been active on this. We have a strong interaction and a 
good one with OMB. The Cost Analysis and Program Evaluation, or 
CAPE, Unit of the DoD is basically their independent arm to 
look at costs.
    We have an equivalent independent arm within the Department 
of Energy and we asked each of those two independent arms to do 
an independent cost evaluation.
    Mr. Frelinghuysen. They are doing a review now.
    Mr. Cook. They are doing--yes, yes. CAPE is just getting 
into the beginning parts for the CMRR whereas our arm completed 
that work for UPF. And they are now working together to do 
that.
    Mr. Frelinghuysen. So, when will the review be completed?
    Mr. D'Agostino. I would say it is going to take--yes.
    Mr. Cook. Spring to summer, late spring to early summer.
    Mr. Frelinghuysen. So they come up with their 
recommendations and observations, but are you sort of 
proceeding nonetheless with design and construction?
    Mr. Cook. Yes, the answer is we are proceeding with design. 
We do not have standing armies. We have armies of very 
competent people who are doing the design and they have got to 
get the design right. We are proceeding and we will take into 
account prior to setting the baseline for the facilities, we 
are going to get the cost estimates from CAPE and from our 
internal arm, and we will compare that. If they are reasonable 
and if we have--if we feel we have a good understanding of the 
cost, then we will proceed once the engineering is beyond 90 
percent done to set the performance baseline and hold the 
control.
    Mr. Frelinghuysen. I do not mean to be facetious, you have 
got armies over in Savannah, don't you?
    Mr. Cook. We have big sites. We have a lot of work, so I am 
not sure which army at Savannah you are talking about.
    Mr. Frelinghuysen. Yes.
    Mr. Cook. We will certainly have a lot of activities in 
tritium.
    Mr. Frelinghuysen. Yeah. Well, let me get----
    Mr. Cook. And the construction on the other side.
    Mr. Frelinghuysen. Let me get to the Tritium Readiness 
Program.
    Mr. Cook. Sure.
    Mr. Frelinghuysen. The GAO has investigated the Tritium 
Readiness Program this past year and raised some, I think, 
fairly serious questions about your ability to provide a 
reliable source to maintain the nation's nuclear weapons 
stockpile for the future. They recommended that a comprehensive 
plan be developed to manage the technical challenges and 
production requirements. Can you talk to us about their 
recommendations?
    Mr. D'Agostino. Absolutely.
    Mr. Frelinghuysen. This is, of course, on top of all the 
other things that you are doing, right?
    Mr. D'Agostino. Yes.
    Mr. Frelinghuysen. All the other priorities.
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen. And some of the priorities that we have 
mentioned.
    Mr. D'Agostino. Right.
    Mr. Frelinghuysen. New investments.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. Your desire, obviously, and all of our 
desire to deal with the legacy of an ancient, you know, nuclear 
infrastructure that is----
    Mr. D'Agostino. The training piece is absolutely critical 
to our efforts. And GAO identified a couple of concerns that 
they had. One of them had to do with a large number of uncosted 
balances that are the results of the program. That was strictly 
a matter of how the contracts were initially structured and the 
GAO made a recommendation on that and we are implementing that 
recommendation to do more of a year-by-year approach instead of 
putting all the money out there and then waiting for seven 
years for all that money to get spent. So that was purely a 
matter of structure, but we are going to make that change.
    The second element of their concern had to do with the 
amount of tritium-producing burnable absorption rods--or TP 
BARS as it is called--and whether we had the right number and 
the right agreements in place with the Tennessee Valley 
Authority in WattsBar Unit 1 in order to irradiate these. They 
are currently----
    Mr. Frelinghuysen. This is where there is one and 
potentially three.
    Mr. D'Agostino. Right, right. Absolutely, sir. There is one 
and potentially three reactors that we can use in this case.
    Don, since the tritium is in your area, could you add some 
of the details on that? But there are good options for the 
enterprise in order to make sure we maintain this tritium 
capability. I am confident that we will.
    Mr. Frelinghuysen. But maybe before Dr. Cook answers, with 
the size of the stockpile going down are the requirements for 
reducing tritium going down as well or?
    Mr. D'Agostino. It changes a little bit because we do have 
an operationally deployed stockpile decreasing in size, as you 
know, sir.
    Mr. Frelinghuysen. Yes.
    Mr. D'Agostino. There is an overall size of the stockpile 
we need to maintain. And so some of the details associated with 
that series of warheads, the group of warheads that are not 
part of the operationally deployed set of units. We have 
different requirements within the Defense Department on, you 
know, keeping tritium bottles full on this handful and because 
they are in the more ready state, and then we have a secondary 
readiness state where we do not have to worry about it as much.
    The bottom line is that there is a tightly integrated--Don 
has a group of folks that track tritium, you know, by the liter 
and by the milliliter most likely, to make sure, you know, with 
the decay of tritium and the requirements curve going up, to 
figure out when and where we have our issues out into the 
future.
    Mr. Frelinghuysen. So you are going to tell us how all 
those pieces are going to fall together?
    Mr. Cook. I am going to describe that we have a plan.
    Mr. Frelinghuysen. Oh, good.
    Mr. Cook. Tritium decays with a half-life of about 12 
years, so that is clearly in our plan. We are in the early 
stages of really the engineering and production of tritium, so 
the tritium extraction facility which takes tritium out of the 
BARS, our contracts with companies such as Westdyne and the 
relationship with TVA, we have worked through.
    You know, a technical issue, tritium is permeating through 
the BARS and the early licensed condition that was established 
had one assumption. We continue to make progress on containing 
the tritium, but for 10,000 tritium atoms we contain all but 4 
and we hope to get that down to containing all but 2 and all 
but 1. This is the reason why having the expansion to three 
reactors rather than one is so important. Under no condition 
will we go past the EPA limits. The question about the----
    Mr. Frelinghuysen. There is a lot of angst on the first 
one, right?
    Mr. Cook. The angst on the first one is we can--yes, there 
is. And we are--you know, we will not exceed the license 
conditions certainly that TVA has with NRC and with 
environmental organizations.
    Mr. Frelinghuysen. Even for that one you have to have some 
sort of a----
    Mr. Cook. That is correct. So we developed a plan----
    Mr. Frelinghuysen [continuing]. Side by side or something.
    Mr. Cook. Yeah. And we are, again, working this with a 
decrease in the stockpile, the return of older weapons. And 
again, General Finan has been right in the thick of this with 
the Department of Defense because that is one of the deliveries 
we produced. So, every 18 months we have a cycle of these TP 
bars go through the reactor, a TVA reactor. And we have----
    Mr. Frelinghuysen. So the side-by-side of what I talked 
about was sort of a retention area, right, or the clean up? And 
is that budgeted for? Is that--because that is a cost that I 
would assume somebody must have anticipated.
    Mr. Cook. The answer is yes.
    Mr. Frelinghuysen. It is budgeted for?
    Mr. Cook. The answer is it is budgeted for.
    Mr. D'Agostino. It is budgeted right next to the tritium 
extraction--excuse me, right next to the tritium extraction 
facility. That is Savannah River. I think it is Building 232. 
It is an older facility, but the pipe goes from one end to the 
other facility. And it is in that old facility where the old 
bottles come in from the stockpile, the tritium is cleaned up, 
the gasses are separated because it does decay as Dr. Cook was 
describing. And so having these things scrubbing out these 
particular isotopes is what happens in that building. And that 
all feeds--all that data comes in on a very regular basis to 
feed the database that tries to--that keeps on top of the decay 
of tritium, then the stockpile needs and our production 
requirements.
    Mr. Frelinghuysen. But the TVA, the area around the reactor 
had some issues. Aren't there cleanup issues there?
    Mr. D'Agostino. Associated with the----
    Mr. Frelinghuysen. Tritium, yeah.
    Mr. D'Agostino. Yes.
    Mr. Frelinghuysen. Yeah, the leakage issue.
    Mr. D'Agostino. As reactor coolant comes out during 
sampling and the like, it has got a little bit more tritiated 
water than is normally expected. In this goes to the 4 atoms 
out of 10,000 versus what we are going to get to is 2 out of 
that 10,000.
    Mr. Frelinghuysen. So there are costs associated with that.
    Mr. D'Agostino. We are working with TVA. I am not familiar 
with the specific costs associated with them, but we have been 
working very closely with TVA on this as well as the licensing. 
We can provide the Committee some specifics on costs.
    Mr. Cook. Yes, if I can quickly address two issues. There 
was an impression early in our working with GAO that they 
thought the large uncosted balances were because we were not 
making technical progress. I want to just clarify it was 
because we had long-term contracts structured. We did not want 
to lose the supplier of these TP BARS. They are also a critical 
supplier to TVA.
    But the real issue at hand is the timing at which TVA and 
with our support can achieve a change in the license condition. 
If it looks like that is going to be too long off, then to meet 
the tritium needs we will have to use more than one reactor. We 
will still lose the same amount of tritium, but in two or three 
different places rather than one. If the license condition can 
be changed in time, then we only have a need to use one.
    Mr. Frelinghuysen. A lot of things have to fall in place. 
Is that another way of----
    Mr. Cook. A lot of things need, yes, need to be worked into 
place.
    Mr. Frelinghuysen. Yeah.
    Mr. Cook. That is correct.
    Mr. D'Agostino. Mr. Chairman, we would be glad to get some 
of the specifics on cost to you.
    Mr. Frelinghuysen. Let me yield to Mr. Pastor to see if he 
has some additional questions.
    Mr. Pastor. There are a lot of things that have to fall 
into place, but we have a plan for it, that is the good news. 
The question I have is about warhead dismantlement. In the 
review, Nuclear Posture Review, it states that modernization 
will allow you to accelerate dismantlement of retired warheads. 
But yet in this budget there is a reduction. I think you had 
$96 million in fiscal year 2010 and this year, 2012, you were 
talking about $57 million.
    Mr. D'Agostino. Right.
    Mr. Pastor. Why is the funding going down if the review 
states that you can accelerate the dismantlement?
    Mr. D'Agostino. The dismantlement work, there was an--we 
had a one-time increase in fiscal year '10, as you pointed out, 
to accelerate some safety studies that we needed to do for a 
couple of our warhead systems, the W84 and the B53 warheads, as 
well as by the tooling because these are special tools that you 
need in order to take apart the warheads. The dismantlement, we 
put together an accelerated schedule a few years back and, in 
effect, we are implementing on the particular track on the 
accelerated schedule.
    There is not a one-to-one correlation between dollar 
appropriated and number of warheads dismantled because each of 
these warhead systems are different. The larger warhead 
systems, for example the B53, for example, takes many, many 
weeks to take apart just one. In some of our earlier systems 
you can take apart a warhead in just two shifts' worth of work. 
So it is very difficult to, in my view, ascribe just a dollar 
and say $1 million provides you 1 warhead, so 58 gets you 58 
warheads.
    The key for me is not speed of warhead dismantlement, but 
safety of warhead dismantlement. We are very careful not to 
pressure our contractor, Babcock and Wilcox down at Pantex, to 
take them apart faster or to exceed some goals because these 
are systems that have been together in some cases for 45 years, 
you know, high explosives and polymers and metals that have 
been put together under pressure for 45 years, and the key is 
to do it safely. So I know that there is a lot of value. The 
more warheads that we have taken apart, the safer I feel 
because it separates the high explosives from the special 
nuclear material. But speed is not one thing that drives me 
because I am concerned about safety.
    Don, do you want to maybe comment as well to Mr. Pastor?
    Mr. Cook. Yes. Sure. And I think the observation that the 
funding levels are different is very clear. And the key 
difference is, as the Administrator said, the investment that 
was made in the tooling and in the safe systems for the 21st 
century. SS21 is what we call it at the plant. Those are all 
complete. So for the first time in more than a decade, Pantex 
now has full safety authorization to disassemble or to 
reassemble any of the elements in the present stockpile or all 
parts of the retired stockpile. So----
    Mr. Pastor. So--oh, okay, go ahead.
    Mr. D'Agostino. Yes. So, I do not have a concern that we 
will meet our dismantlement levels to which we have committed. 
And it will take--once again, the important activity in weapon 
dismantlement is to ensure it is absolutely safe. And keeping 
it at a steady pace from now on where we are is going to be the 
driving requirement.
    Mr. Pastor. Well, you are saying that there is not a one-
to-one ratio. And so--but the $96 million, as I understand it, 
was basically an acceleration, but it went into, I guess, 
infrastructure?
    Mr. D'Agostino. Yes, special tools that were designed----
    Mr. Pastor. So, it went into having the equipment, having 
the infrastructure, so that you could do a more efficient job 
of dismantlement.
    Mr. D'Agostino. Yes, sir, that is right. And the way--you 
know, obviously there are ways to speed things up.
    Mr. Pastor. I understand.
    Mr. D'Agostino. We could bring up a whole new--we could 
hire people specifically for the shop as a new shift. The 
concern I have kind of from a sustainable planning standpoint 
is if we decided, for example, that it was so important that we 
wanted to--you know, now that we have our tools, we want to 
fully utilize them 24/7, if you will. That way we can get the 
work done faster. That is certainly possible, but it would 
require, I think, some significant hiring of production 
technicians down in Pantex. These are some fairly expensive 
people to bring on board because we have to make sure--it is 
not just hiring a mechanic off the street. We process security 
clearances and give them their training, and so about a year 
after they get on board they are actually doing some useful 
work. And then I would be in the business of laying off a whole 
bunch of people about five or six years from now, or maybe more 
like seven or eight years from now, after all the work is done. 
And that provides a bit of a bubble in our workforce. So there 
is an element of that that goes into the planning. Associated 
with that is the numbers of technicians that we have balanced 
off against the existing work that we currently have.
    Mr. Pastor. So I guess the policy decision was to take the 
money in 2010 and, for safety reasons, get the equipment that 
would allow us to safely be able to dismantle a number of 
weapons?
    Mr. D'Agostino. Right.
    Mr. Pastor. So, now you have the equipment?
    Mr. D'Agostino. Right.
    Mr. Pastor. And you decided to run one shift because you 
did not want to bump the personnel because five years out, six 
years out, whatever the time length, you would have to lay off 
the other two shifts because of the number of weapons that 
needed to be dismantled.
    Mr. D'Agostino. Yes, sir. It is a policy and a financial 
decision as informed by the financial piece of it because it 
would cost a lot to bring people up and----
    Mr. Pastor. Sure.
    Mr. Cook. If I can make two other connections. When it 
comes to nuclear explosives safety we have got the Sandia lab 
strongly integrated in our work at Pantex. We also have the Y12 
activities, so when a weapon is dismantled at Pantex, even if 
we might choose to do it faster there, we wind up piling up the 
secondary systems that have to go to Y12 to be taken apart. And 
what we have been driving toward is a sustained capability for 
the next decade at a rate that all elements of the complex can 
work, too.
    Mr. Pastor. So, because now you have a strategy pretty much 
planned to go through the decade, would it be realistic for me 
now to say, well, $57 million will be kind of the yearly 
expense that we are looking at for this?
    Mr. D'Agostino. Yes, sir. I would have to look at my stat 
table to find out how it changes. It changes a little bit over 
time.
    Mr. Pastor. But that it is basically what it is around, is 
that correct?
    Mr. D'Agostino. Yes, where we can partition that off 
specifically for this particular activity. It is supported by 
the rest of the tooling because it is obviously utilizing the 
Pantex plant. It utilizes the production technicians, the 
gauges and testers that get used as these things get taken 
apart.
    Some of this work is also supported by the surveillance 
program because when we take things apart, we--instead of just 
taking them apart and then destroying the components, some of 
these components actually will get looked at for how they have 
aged. Because there is a lot of data that we can extract from 
this dismantlement activity, so elements of that are supported 
by the surveillance program. But those specifically focused on 
taking apart retired warheads are part of this unique 
dismantlement plan.
    Mr. Pastor. So let me go again. The $96 million allowed you 
to buy the equipment or the tools. And for safety reasons, we 
needed them.
    Mr. D'Agostino. Yes.
    Mr. Pastor. A decision was made not to bring on additional 
personnel because you wanted to keep a steady flow.
    Mr. D'Agostino. Yes, sir.
    Mr. Pastor. So, now we have a plan for 10 years, more or 
less. One of the problems being that the secondary institution, 
wherever it may be----
    Mr. Cook. Y12, yes.
    Mr. D'Agostino. Right.
    Mr. Pastor [continuing]. Wherever it may be, does not have 
the capacity, so that is another limiting factor.
    Mr. D'Agostino. Right. Yes, sir.
    Mr. Cook. So, it----
    Mr. Pastor. Right?
    Mr. D'Agostino. Yes, sir.
    Mr. Cook. That is all correct the way you said it.
    Mr. Pastor. So are we really accelerating dismantlement or 
are we just on the same program? And if we are increasing it, 
what is the baseline that we are using to say we are increasing 
it?
    Mr. D'Agostino. So the baseline is established in a report, 
a classified report, provided to Congress. We will provide it 
to the Committee. I would be happy to provide it to the 
Committee.
    Mr. Pastor. I guess I did not have the clearance to read 
it, so.
    Mr. D'Agostino. No, no. No, you have the clearance, sir, 
there is no question about it. You might not have a safe in 
your office, but we will make sure the Committee gets that 
report. But also, what we have actually is very significant----
    Mr. Pastor. Well, the question is in the 10 years are we 
really accelerating or are we status quo or----
    Mr. D'Agostino. Yes. I will explain.
    Mr. Pastor [continuing]. Are we decreasing? I mean, I guess 
that is probably what we are looking for.
    Mr. D'Agostino. No, we actually are accelerating, Mr. 
Pastor. The report provides the baseline. That is our 
commitment.
    Mr. Pastor. Okay.
    Mr. D'Agostino. That is step one. Step two is we are 
accelerating. Just last year, in fiscal year '10, Pantex 
exceeded its dismantlement plan by 26 percent. It did 120 
percent of that workload. In FY10, fiscal year '10, the 
previous fiscal year I think they were up about 10 percent. And 
what we have realized is as a result of this baseline and these 
new tools that have been brought in place, that these new tools 
drive the efficiency of the dismantlement and the safety of 
dismantlement rate up much better than we had expected to.
    So what we are in the business of--and, hopefully, we are 
always in this business--but it is underpromising and 
overdriven. You know, I do not want to promise something that 
we cannot deliver on, but I always want to promise something 
that I know I can at least deliver on and hopefully exceed that 
piece.
    So our commitment to the President earlier on was to get 
that whole retirement set of workload done by about 2021, 2022 
timeframe, 10 years out.
    Mr. Pastor. Ten years out.
    Mr. D'Agostino. But our data shows us we will probably 
actually get there sooner. That is a good story.
    Have we re-baselined our old report? No, sir, we have not. 
Could we? We probably could and kind of re-normalize the curve, 
if you will. So that is in our acceleration piece. We are 
accelerating as a result of that. But it is as a result of the 
workforce down at the plant with the new tools and the new 
processes that we put in place. It is actually a good story, I 
believe.
    Mr. Cook. Yes, if I could just comment. I was looking at my 
notes. Earlier, sir, you said that the--earlier, sir, you said 
the barriers were personnel, infrastructure, and training.
    Mr. Pastor. Right.
    Mr. Cook. And I think that is pretty clear. So, you know, 
we had been training people at Pantex through '09 and '10. Much 
of the new tooling was implemented in '10. It will be kept 
operating in '11, '12, and beyond. And the budget for 
dismantlement is relatively flat into the future.
    In order to deal with the backlog that we had at Y12 we are 
doing planning activities right now. But in terms of another 
key infrastructure item is having safe systems, you know, 
having the business practices and the safety approvals. That 
tended to be the dominant one at Pantex besides the training of 
people and the new tooling. At this point, all three are in 
place. And so we expect to have now a sustained level of 
dismantlement that is at a higher rate compared to years 7 and 
8. So clearly a higher rate and that ought to be sustained for 
a decade.
    Mr. Pastor. So what do we do in 2012 in terms of 
dismantlement? We say we are done and----
    Mr. Cook. In 2020?
    Mr. D'Agostino. 2020, 2022.
    Mr. Pastor. 2022, I am sorry. Yeah, 10 years from now, 
right.
    Mr. Cook. My belief is that as the weapon numbers come down 
because we are going to take things off operational alert----
    Mr. Pastor. Right.
    Mr. Cook [continuing]. The 2,200 down to the 1,550. And as 
newly manufactured weapons are put in place that will have 
other weapon systems that we need to take apart, we will want 
to recover special materials, we want to safely dispose of the 
high explosives. And that time scale of 2022 will probably move 
out, but the number will taper off to a relatively steady 
state.
    Mr. Pastor. Within the scope, yes. Thank you.
    Mr. Cook. Sure. Good question.
    Mr. Frelinghuysen. He is every bit persistent. We are 
approaching noon and I just want to get back in here and then 
we are going to----
    Mr. Pastor. We finally got the review, so that was the good 
news.
    Mr. Frelinghuysen. A lot of what we are talking about here 
is sequencing----
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen [continuing]. And your ability to sort of 
get things done. And Mr. Administrator, you spoke earlier about 
your relationship with the Defense Nuclear Facilities Safety 
Board. And there seems to be some disagreement between NNSA and 
that board regarding some safety issues at CMRR. Are there some 
issues there relative to seismic issues?
    Mr. D'Agostino. Well, yes. I would not call them issues per 
se. I would call them technical differences in approaches on 
the chemistry. The CMRR, which is the replacement facility that 
we have right now before us, the Board and the Department have 
agreed and certified a particular design, and that is the 
approach that we are moving forward on.
    What we are looking at is to make sure as--you know, 
obviously as you said earlier and I have said earlier, our 
understanding of what it is going to cost to provide these 
facilities has changed. We want to make sure we understand what 
drives the cost change. Because it is important for us to 
understand what drives the cost change and to make sure that we 
understand those particular drivers.
    And this is not a matter of backing off on safety at all. 
On the contrary, it is a matter of taking a look at making sure 
we understand what drives costs. And if we need to change, we 
have not made any views on changing the design approach, if we 
need a change, we understand what we are getting into changing.
    The current CMRR, the replacement building design, is 
designed to withstand a certain seismic load, if you will, the 
1 in every 10,000 or 1 in every long period of time type of an 
earthquake. A priority, of course, is balance, you know. What 
we do is we have to manage risk. And we manage risk--each and 
every one of us manages risk at any point in time, and so I 
expect--obviously as designs mature and as decisions need to be 
made on, well, should we put this in the building or should we 
put that in the building, we will have differences of views and 
we will resolve those.
    But one thing that is important from my standpoint is the 
Board provides an independent input into the Department on 
safety issues. It is critically important for us to get that 
input because they give us an independent set on something that 
is so important, which is nuclear safety. We as a department, 
as the Executive Branch, have the responsibility to take that 
input, make sure it is duly considered in the policy decisions 
as we move forward, and then balance the tradeoffs.
    Don may have some specifics associated with any particular 
specific differences of views that currently exist, but.
    Mr. Cook. We have asked some questions of Los Alamos. Let 
me tell you what they are and why they were asked.
    So CMRR has really two functions: it replaces a CMR 
capability that we have and it also has a storage vault for 
special nuclear materials. That is like HEUMF at Y12 for 
storage of uranium. Here it is a storage of plutonium. The 
material went into--in that vault is not considered material at 
risk. Because the requirements for the number of pits that we 
need to be manufactured at Los Alamos is now in a clearly 
defined fine range--the 50 to 80, and at the beginning of CMRR 
years ago the number was larger--there is the potential to deal 
with more material in the vaults, better process in the actual 
manufacturing processes, and less material at risk.
    And I asked the question of the Los Alamos team have we 
done the best job we can to minimize the material at risk in 
all of the process flow, all of the glove boxes that we have, 
all the transportation of material. Because it is only when 
material is in that case that if an earthquake occurred--and we 
do understand the seismology of the region better--and then if 
that triggered a fire, certainly earthquakes have been known to 
trigger fires in the place, and then if we had a fire 
suppression system fail and be required to active ventilation 
through all of this fault sequence, the amount of money that we 
have to invest in all of that is critically dependent on the 
material at risk.
    And so my question is have we gotten that material at risk 
at the lowest level possible? I sent a letter to Los Alamos and 
also sent immediately a copy of the letter to the Defense Board 
so they can see what we are doing.
    Mr. Frelinghuysen. So is there likely to be a delay or not 
at Los Alamos?
    Mr. Cook. There is not likely to be a delay. The issue--we 
have a current design for the plant. The question is not 
whether we need to have more in the plant, but whether the 
safety systems have to work at the level assumed in the past, 
and it may well be the case, or whether we can reduce the 
material at risk and take a minor change in the safety systems. 
That is the question at hand.
    Mr. Frelinghuysen. I think we have covered quite a lot of 
territory this morning. And I want to thank all three of you 
for your testimony--hearings often do not get through on time--
--
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. In closing, Mr. D'Agostino, please 
ensure that the hearing records, the questions for the record, 
and any supporting information requested by the Subcommittee 
are delivered in final form to the Subcommittee no later than 
four weeks from the time you receive them. The members who have 
additional questions for the record will have until close of 
business tomorrow to provide them to the Subcommittee staff.
    And I want to thank you all for being here, for your 
participation, for your education, and may I say for the work 
that you do each and every day. And I know you have got a lot 
of supporters in the back of the room who have dedicated their 
lives to the same purpose, and we would like to recognize their 
efforts and dedication.
    Mr. D'Agostino. Thank you, Mr. Chairman and Mr. Pastor.
    Mr. Frelinghuysen. We stand adjourned. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                          Wednesday, March 2, 2011.

   DEPARTMENT OF ENERGY, DEFENSE NUCLEAR NONPROLIFERATION AND NAVAL 
                                REACTORS

                               WITNESSES

THOMAS D'AGOSTINO, UNDER SECRETARY FOR NUCLEAR SECURITY
ANNE HARRINGTON, DEPUTY ADMINISTRATOR FOR DEFENSE NUCLEAR 
    NONPROLIFERATION
ADMIRAL KIRKLAND H. DONALD, DEPUTY ADMINISTRATOR FOR NAVAL REACTORS
    Mr. Frelinghuysen. I'd like to call the hearing to order. 
Good morning to everybody.
    Voices. Good morning.
    Mr. Frelinghuysen. Today's hearing will continue this 
week's focus on the national security programs at the 
Department of Energy. Administrator D'Agostino and Admiral 
Donald, welcome back to the Subcommittee. Ms. Harrington, 
welcome to your first hearing. It's nice to have you here.
    As I said yesterday, our Committee is not immune to the 
reality that we must do our part to reduce federal spending and 
our huge deficit. Our resources will be constrained, even for 
the most essential activities under our jurisdiction and all 
programs, even vital security programs must be considered in 
that context.
    I consider the Department of Energy's national security 
programs to be its most important mandate. The two accounts 
we'll consider here today, Naval Reactors and Defense Nuclear 
Nonproliferation, are critical components of our nation's 
defenses.
    The Administration's request for nonproliferation programs 
is $2.5 billion, $140 million below last year's.
    Given the attention the President has given to 
nonproliferation programs, including his attempt to secure 
fissile material overseas in four years, I look forward to 
hearing how this budget moves those efforts ahead.
    I hope that you will also assure us that you are able to 
meet the growing challenges in Libya, Iran and North Korea, 
among other areas, and that our national security needs are met 
under this budget request.
    Admiral Donald, your budget request for Naval Reactors is 
an 8% increase over your last year's, and a 22% increase over 
your current operating level.
    Your programs are critical to national defense and give our 
naval forces the next-generation propulsion systems that 
maintain our Navy's edge.
    Since the Naval Reactors program is split with funding from 
the Navy, the NNSA component is only part of the story. I hope 
you'll take some time this morning to clarify for us all how 
that relationship works, and what complications it causes.
    Admiral Donald, I consider it our Constitutional 
responsibility, first and foremost, to fully support national 
defense and also to fully protect the hard-earned tax dollars 
of Americans that only House members can raise.
    Frankly, there are still many questions to be answered 
about the Administration's planning to modernize our nation's 
nuclear submarines and therefore we don't have a good grasp on 
what your budget to support this program needs to be. Perhaps 
you will be able to shed some light on these plans for us 
today.
    Again, I'd like to welcome our witnesses to the 
Subcommittee. Mr. D'Agostino, please ensure that the hearing 
record, questions for the record, and any supporting 
information requested by the Subcommittee are delivered in 
final form to us no later than four weeks from the time you 
receive them. Members who have additional questions for the 
record will have until close of business tomorrow to provide 
them to the Subcommittee office.
    With that I will turn to Mr. Pastor, the Ranking Member, 
for any remarks he may have. Mr. Pastor.
    Mr. Pastor. Good morning, Mr. Chairman, and thank you very 
much.
    Mr. Administrator, good morning and welcome again.
    Mr. D'Agostino. Thank you, sir.
    Mr. Pastor. And Admiral Donald, good to see you again. And 
Ms. Harrington, good morning and welcome to the hearing, and we 
all look forward to the testimony you will give us this 
morning.
    As the Chairman said, this President has been very 
aggressive in terms of securing these materials and wants to do 
it in four years and it is a surprise to me that this budget is 
reduced, as the Chairman explained to us, so I would like to 
understand why, given all the attention to securing this 
material, this account sees a decrease when the remainder of 
NNSA is increasing.
    Once again the magnitude of the increase raises concern 
whether the increase can be effectively executed in a single 
year, and I look forward to your testimony today on how this 
funding can be effectively used.
    As you are discussing the budget today, I would also like 
you to address how flat funding for your organization in 2011 
will impact your activities.
    Admiral, your organization sees a large increase over 2010 
and over the 2011 request. The requested level for nuclear 
reactors is a 22 percent increase over 2010. Again, there are 
issues of execution with that magnitude of increase. I look 
forward for your explanation how this funding will be used.
    I look forward to your testimony regarding the areas of 
national security and thank you, Mr. Chairman, for the time. 
And I yield back.
    Mr. Frelinghuysen. Mr. Administrator, the floor is yours.
    Mr. D'Agostino. Thank you, Mr. Chairman, Ranking Member 
Pastor, Mr. Alexander. I appreciate the opportunity for us to 
join you again today and talk about our nuclear security 
programs.
    Since I joined you yesterday, I will keep my opening 
remarks brief. Mr. Chairman, NNSA will comply with your request 
to provide responses in the timeframes you requested.
    Last year the Nuclear Posture Review reaffirmed the vital 
role that nuclear submarines play in our strategic deterrent. 
For fiscal year 2012 President Obama has requested $1.1 billion 
for NNSA's Naval Reactors Program. The Nuclear Posture Review 
highlighted the need to build a replacement for the Ohio Class 
submarine, which will start to be retired from service in 2027.
    Our fiscal year request continues the design work on the 
propulsion unit for that Ohio Class replacement submarine in 
order to meet the Navy's required procurement date of 2019.
    The budget request also includes critical investments in 
modern and sustainable fuel infrastructure at Naval Reactors 
site in Idaho National Laboratory. This will allow us to move 
fuel from wet to dry storage and ultimately dispose of it while 
we maintain the capacity necessary to receive spent fuel 
generated during sustained, increased periods of fuel handling 
in our shipyards.
    Finally, the budget request also seeks the resources to 
refuel the land-based prototype reactor in upstate New York.
    Mr. Chairman, these three investments support our historic 
and essential role in helping power America's nuclear Navy. 
Admiral Donald is here with me today, of course, and he will 
provide a few comments in a few minutes here.
    With respect to our nuclear naval--I am sorry--our nuclear 
nonproliferation programs, the President is seeking the 
resources required to implement his unprecedented nuclear 
security agenda he outlined in Prague.
    On any given day we have people working around the world in 
more than 100 countries to reduce the global nuclear threat.
    If I could, I would like to make a simple but important 
statement. Preventing the spread of nuclear weapons and keeping 
dangerous nuclear material out of the hands of terrorists is a 
vital national security priority. These are, without a doubt, 
national security programs that we have here.
    As President Obama said, the threat of terrorists acquiring 
and using a nuclear weapon is the most immediate and extreme 
threat we face. His 2012 budget includes $2.5 billion in FY12 
and $14.2 billion over the next five years to reduce the global 
nuclear threat by detecting, securing, safeguarding, disposing, 
and controlling nuclear and radiological materials as well as 
promoting the responsible application of nuclear technology and 
science. This includes stemming the risk of expertise 
proliferation through innovative science and technology 
partnerships around the world.
    The President's request provides the resources required to 
meet commitments secured during the 2010 Nuclear Security 
Summit. For fiscal year 2012 it includes $1.1 billion or close 
to $1 billion to remove and prevent the smuggling of dangerous 
nuclear material around the world and enable NNSA to continue 
leading international efforts to implement more stringent 
standards for physical security and protection of material in 
facilities worldwide.
    The President is also seeking $890 million for the Fissile 
Material Disposition Program, which supports the continued 
construction of a mixed oxide fuel fabrication facility, the 
waste solidification building, and efforts to baseline the pit, 
disassembly and conversion project at the Savannah River site 
in South Carolina.
    Not only will these facilities be used to permanently 
eliminate more than 34 metric tons of surplus weapons 
plutonium, but it will be done in a way that produces 
electricity for America's consumers.
    As I like to say, this is the ultimate swords to plowshares 
program and a key element of the President's nuclear 
nonproliferation agenda.
    Finally, the budget request directs more than $360 million 
to the research and development required to create new 
technologies for detecting nuclear proliferation or testing and 
for monitoring compliance with nuclear nonproliferation and 
arms control treaty agreements. To me, this last point is the 
key. Investing in the science and technology underpinning our 
programs is critical to implementing the President's nuclear 
security agenda.
    This is serious business. We need the best minds in the 
country working at our national laboratories and sites to 
develop the tools that will keep the American people safe and 
enhance global security.
    Investing in a modern, 21st century nuclear security 
enterprise is essential to preventing nuclear terrorism or 
nuclear proliferation. These missions are interrelated, they 
rely on the same skill sets, the same people, and many of the 
same facilities.
    This is a major part of the reason why we need to complete 
the uranium processing facility at Y-12, the National Security 
Complex, and the Chemistry and Metallurgy Research Replacement 
Facility at Los Alamos Laboratories.
    These projects are critical to maintain the nation's 
expertise in uranium processing and plutonium research and I 
strongly encourage this Committee to continue supporting them.
    Mr. Chairman, these are some of the highlights of this 
request as it relates to nuclear nonproliferation, naval 
reactors. I look forward to answering any questions and I would 
request Admiral Donald provide a few minutes on his program, 
sir.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Frelinghuysen. Thank you, Tom. Admiral, good morning.
    Admiral Donald. Good morning, sir.
    Mr. Frelinghuysen. We have got two submariners at the dais.
    Mr. D'Agostino. Yes, sir.
    Mr. Frelinghuysen. One in uniform, one without.
    Mr. D'Agostino. Sir, with your permission I would like to 
introduce two guests that I have here with me today. The first 
is my wife of 37 years, Diane. She's been on this journey with 
me, this naval career, and supported me and I would not be here 
without her. Also, her sister is here, Terri, who is just 
returning from an eight month tour in Afghanistan, a Navy 
Reservist serving our country.
    Mr. Frelinghuysen. Well, we salute you.
    Mr. Alexander. Where are they?
    Mr. Frelinghuysen. We thank you all for your service and 
for those of you who did not see the Washington Post this 
morning, General Kelly, there is a rather poignant story I 
commend to your attention. He does not advertise that he lost a 
son, but we should reflect every day how blessed we are by the 
service of so many young men and women and some not so young, 
serving in the military, and their families, each and every 
day. We are extraordinarily proud.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. All of us here are proud.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. Admiral.
    Admiral Donald. Yes, sir. Chairman Frelinghuysen, Mr. 
Pastor, Mr. Alexander, thank you for the opportunity to testify 
here today on the Naval Reactors fiscal year 2012 budget 
request. The request is for $1.15 billion.
    This funding provides the resources to sustain a nuclear 
fleet of 71 submarines and 11 aircraft carriers that comprise 
over 40 percent of the major combatants in the United States 
Navy and the most survivable leg of our strategic nuclear 
deterrent, 14 fleet ballistic missile submarines.
    Our FY12 request also supports the modernization of our 
nation's nuclear deterrent with funding for the reactor plant 
design and land based prototyping to replace the existing Ohio 
Class ballistic missile submarines.
    The Ohio Class ships will start retirement from service in 
2027 and to meet the Navy's required procurement date of 2019, 
my program's work is underway now. Further, that land based 
prototyping work will provide a training platform for one-third 
of my nuclear operators for the future for the next 20 years 
once it is back on service.
    And finally, this budget funds the modernization and 
sustainment of our aging spent nuclear fuel infrastructure in 
Idaho.
    As the Administrator pointed out, we have to do this to 
ensure that we remain in compliance with the Idaho Settlement 
Agreements of 1995 for movement of fuel from wet storage to dry 
storage and to ultimately dispose while we maintain the 
capacity necessary to receive spent fuel generated during a 
sustained, intense period of fuel handling in our shipyards.
    Sir, I realize I come before you today at a very 
challenging time for our nation and I know I am not alone in 
asking for funding for claimed important programs. As you 
deliberate and make the difficult decisions that you must, I 
ask that you consider the following: the Naval Reactors Program 
operates and maintains 103 nuclear reactor plans on submarines, 
aircraft carriers, and ashore at training, and research and 
development facilities. We perform complex engineering and 
technical work to develop and maintain highly capable reactor 
plans and associated equipment for their 30 to 50 year 
lifespan.
    Our ships are deployed around the globe and they are 
welcome in over 150 ports worldwide. Nuclear powered ships are 
home ported in eight United States cities and in Yokosuka, 
Japan. That unfettered access to ports and the associated 
operational flexibility is only possible because the public 
trusts us, and that trust is derived from confidence in our 
record of safe operations, in environmental stewardship, in 
managing complex nuclear technology that has high consequence 
in the case of failure.
    Similarly, our performance in reactor plant operations, in 
our shipyards and in spent fuel handling operations in Idaho 
has engendered trust within our workforce and in the local 
communities.
    We have built our record through a singular focus on safety 
that has been facilitated by having the necessary resources to 
ensure the highest standards are maintained, to allow us to 
address small problems before they become big problems, and to 
conduct our engineering in a conservative, defense, in-depth 
approach.
    The Naval Nuclear Propulsion Program has historically been 
a good steward of the taxpayer's dollars. We have a record of 
delivering projects of the highest quality, on time, and on 
cost. The Virginia-Class submarine program, cited as the 
standard for major acquisition programs in the Navy, is the 
latest example of that performance. Further, when challenged to 
prepare spent fuel for dry storage and ultimate disposal in a 
land repository, we successfully constructed the complex 
facilities within our budget and establish a production process 
that ensures we fulfill our commitments to the citizens of 
Idaho.
    Our stewardship is not limited to major projects, but 
rather it is engrained in our day to day work and it starts 
with our headquarters staff, a lean staff comprised primarily 
of engineers who conduct the oversight of all of our 
activities.
    Our laboratories and our unique industrial base are focused 
not only on safety and effectiveness of our propulsion plants, 
but also on cost-wise performance, always seeking opportunities 
to improve. This effort enabled a 15 percent reduction in the 
cost of a Virginia Class propulsion plant after the final 
design was completed.
    This is a unique time in the 60-year history of the Naval 
Nuclear Propulsion Program. In addition to ensuring day-to-day 
safety and effectiveness of an aging nuclear fleet that is 
maintaining a very high operational tempo, as I highlighted 
earlier, we are on the cusp of a required modernization effort 
in the Department of Defense and the Department of Energy that 
has no precedent. This effort will challenge our proven 
technical and project management skills.
    Finally, we are in the early stages of a workforce 
demographic shift where many of our seasoned veterans will be 
replaced by very bright, energetic, but relatively 
inexperienced, newcomers, and while I do not underestimate the 
challenge, I am very confident of our ability to be successful 
and to execute. That confidence is derived from the facts that 
we have a track record of excellence in similar endeavors, that 
our requirements for our projects are fully defined and fully 
validated by the Department of Defense and the Department of 
Energy and the Office of Management and Budget, and that we 
have maintained focus on and demonstrated continuous 
improvement across the full spectrum of nuclear propulsion 
operations.
    Further, all of our projects represent evolutionary as 
opposed to revolutionary technology. We have the essential 
experience that serves to minimize cost, schedule, and quality 
risk.
    Our new projects require many years to bring to fruition. 
We are in the early stages of concept development and design 
that will, for the most part, define overall cost and time to 
deliver. Sufficient resources at this time in the life of major 
projects is absolutely critical as they allow us to 
sufficiently mature designs prior to construction start, a 
condition widely recognized as essential to project success.
    Mr. Chairman, Members, our success would not have been and 
will not be possible without the strong support of this 
Subcommittee. Historically the combination of our proven 
performance, our rigor in developing our requirements, our 
efficiency in executing those requirements, and the 
acknowledgment of the complexity and high consequence of 
failure in nuclear technology has been recognized with 
appropriate funding for our request.
    It is with that understanding that I am concerned over the 
fact that the Naval Reactors Program sustained a cut in the 
Energy and Water Appropriations funding in FY10 of $58 million.
    Further, HR1, which passed the House in February, provided 
$103 million less than our FY11 request. The combined effects 
have been delays in hiring qualified people to do the work to 
prepare for the aforementioned demographic shift, impeded 
progress in the critically important early design work, and the 
resultant substantial increased risk to all projects.
    While the shortfalls are relatively small in the context of 
overall department budget, the impact is particularly 
disproportionate in the early stages of these projects. In 
short, we will not be successful in the long term if this 
funding trend continues.
    I believe we have provided all of the information requested 
by the Subcommittee that supports our request and we stand by 
to answer any further questions or provide any further 
information.
    I would also welcome the opportunity to host you at one of 
our laboratories. I believe your visit would give you a unique 
perspective in both the diversity and magnitude of the ongoing 
work made possible by your support of this program. I 
respectfully request your support for the full amount of my 
FY12 budget and on behalf of the men and women of the Naval 
Nuclear Propulsion Program, thank you for your support, and I 
look forward to answering any questions that you may have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Frelinghuysen. Thank you, Admiral. Ms. Harrington, any 
comments you might have?
    Ms. Harrington. No, sir.
    Mr. Frelinghuysen. Okay, thank you. Admiral Donald, your 
fiscal year 2012 request, as you said, is $1.153 billion, an 
increase of 19 percent over the continuing resolution level. It 
continues a trend of large increases in your budget requests 
over the last two years. Requests which have not generally been 
supported by Congress, at times, appropriators, and 
authorizers, but not just appropriators.
    By fiscal year 2016 your proposed budget will grow to $1.57 
billion, double the 2008 amount of $774 million. Why does the 
Naval Reactors need to be twice as large as it was before the 
start of this Administration when it has so successfully 
executed its mission in the past?
    Admiral Donald. Yes, sir. I would characterize it in two 
places, first is the day-to-day operations of the fleet. The 
fleet size is essentially the same and will be essentially the 
same over the period of time that you mentioned. The 
operational temp will remain the same, so there is a baseline 
of technical support that has to be provided to that operating 
fleet that is included with our baseline budget.
    The increases that you are seeing, aside from what you 
would account for in inflation, the increases that you are 
seeing are involved in the major projects that I mentioned in--
--
    Mr. Frelinghuysen. This is what you classified as cost 
drivers?
    Admiral Donald. Yes, sir. Absolutely. That is the three 
major projects within the Department of Energy, that is the 
Ohio replacement reactor plant design, the SAG land-based 
prototype refueling, and the recapitalization of the spent fuel 
facility in Idaho, those three drive the cost. They are 
expensive projects, no doubt, but all of them there is a valid 
timeline that they have to be done that in many cases is 
physics based.
    For instance, the Ohio Class submarines, they start coming 
off service in 2027. That will happen based on the fact that 
the fuel will be depleted, based on the fact that the life of 
the submarines will reach 42 years. They will come off service, 
so if I cannot deliver by that time, that means force structure 
will have to come off and the fleet will be smaller and less 
likely to be able to meet the requirements.
    The prototype in New York, there is fuel, it is running out 
of reactor fuel. That will happen if I do not refuel that by 
2017. That means I cannot do the prototyping work I need for 
the Ohio replacement core design, that means I will not have 
one-third of my training capacity to support the students that 
have to go through and become reactor operators in the fleet.
    And then finally the replacement for the water pit, that is 
the recapitalization in Idaho, that is really a water pit 
replacement out there. That has to be done at that time because 
of the fuel that is coming out of the aircraft carrier fleet. 
We are in a heavy period of refueling as each aircraft carrier 
comes heel to toe for their midlife refueling or end of life, 
and as that fuel moves into Idaho, if I cannot accept it in the 
water pit facility, if the water pit is not capable or we have 
a material problem that puts it out of commission, I cannot 
take fuel off of those ships and leave it in the shipyards. 
That would mean the ships could not be refueled. That means 
operational capability is lost to the Navy.
    So, that is why you see the profile, why the ramp up is so 
high at this particular point in time in the early stages of 
these projects.
    Mr. Frelinghuysen. Is there something happening in the 
fleets of our competitors which is also driving the need?
    Admiral Donald. I would not characterize it as much at a 
specific fleet of a competitor as I would if you just look at 
the world environment right now and what the Navy is doing. If 
you look at the operational temp of our aircraft carrier, 
submarines, and really all of our ships, it is as high now as I 
have seen it, really, in my career. At any given time half of 
the fleet is underway.
    There is a significant demand in the Western Pacific as the 
rise of China, as they have more influence out into the blue 
water. Some concern about stability in that region and support 
of our allies in that area. Similarly in the Gulf. It is a very 
taxing operational tempo, so the need for those ships right now 
is as great as I have seen it in the course of my career, and 
we are a relatively smaller fleet. If you compare where we were 
in 1989 with roughly a 600 ship Navy, we are at 284 ships in 
the Navy right now. Half the size, yet our commitment----
    Mr. Frelinghuysen. It is dangerously low.
    Admiral Donald. Yes, sir. But our commitment has really not 
changed worldwide.
    Mr. Frelinghuysen. So, you have got three simultaneous cost 
drivers, facing you at the same time. Why are they coming at 
the same time?
    Admiral Donald. It is--believe me, sir, I would prefer that 
they did not come all at the same time, but it is--again, it is 
driven--two of them, in fact, driven by physics, the fact that 
the fuel is--the fuel in the reactors that are operating----
    Mr. Frelinghuysen. Of the ones that are operating now.
    Admiral Donald. The ones that are operating now, the Ohio 
Class, the Ohio Class that is on deterrent patrol right now, 
and the lifetime of those ships. I remind you, those ships--the 
Ohio Class, we built those with the plan that they would last 
for 35 years. We have extended the life of those ships to 42 
years. We do not believe it is possible to take them any 
further. That is, if you look from a submarine point of view, 
you start getting concerns about safety of ship, safety of the 
crews. Forty-two years is as long as we should be operating 
those ships.
    So, there is a hard stop right there and we know how long 
it takes to design and build a new ship to come online in 2027 
and now is the right time that has to be done.
    Similarly, the refueling of the prototype in New York, we 
know it runs out of fuel in the vicinity of 2017, now is the 
time I have to start designing the reactor to go in it, 
building it, and then having it ready to be installed when the 
refueling starts in 2017.
    The water pit, little more--it is a little more challenging 
when you start trying to define it, but they are really--if I 
could talk just a little bit about what this is. In Idaho this 
is a water pit where we take all our spent nuclear fuel, we 
store it in there for a period of time to allow it to cool 
down. We also store it in there to be examined as part of our 
technical work that we do. But this is housed in a building 
that is about 1,000 feet long and 400 feet wide. It is over 
four million gallons of water in this water pit with 25 metric 
tons of nuclear spent fuel in it. Parts of that water pit were 
built 50 years ago. The newest part was built 30 years ago. It 
has cracks in it. It has some leaks in it. It has some 
structural issues that we have just spent a lot of time and 
money and effort and inefficiency in the work we do out there 
to make sure we are no having a safety issue or an 
environmental issue.
    There is not a soul that I have not taken through that 
water pit to take a look at it that comes away saying, Admiral, 
you need to--they say, you need to replace this thing. It is 
time. It does not meet current standards.
    So, it has to be done. And the impacts are this: If I have 
a material problem and it shuts that water pit down, which is 
something I cannot predict right now, then I am out of business 
refueling aircraft carriers, and they stay. The ones that need 
to be refueled stay in port.
    If, even under the best of circumstances as I am refueling 
all of these aircraft carriers, the schedule is significantly 
crunched and the only way we could get out of that schedule 
crunch and be able to meet the commitments to the United States 
Navy for schedule is to compress the refueling cycle. To do 
that we had to put a new shipping system in place and the water 
pit is not prepared to handle fuel from that shipping system. 
It has to be in place by 2020, otherwise I will start either 
backing fuel up, which I cannot do in the shipyards, or have to 
invest in new container systems at $20 million a pop to store 
the fuel onsite, to cask it onsite, before handling in the 
water pit.
    So, the timing is really driven by the operational needs of 
the United States Navy and it is driven, in some ways, by 
physics associated with the platforms and with the need to 
recapitalize the SSBN4.
    Mr. Frelinghuysen. I have been out to Idaho. That is an 
ongoing cost driver right there.
    Admiral Donald. Yes, sir. It is.
    Mr. Frelinghuysen. It is. Maybe just the last question 
before I go over to the Ranking Member, Mr. Pastor. The issue 
of affordability of the new Ohio Class, can you talk about that 
for a minute?
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. We have been trying on this committee, 
as you know, to get our hands around it. I think we know we 
have to do what we have to do----
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen [continuing]. To be supportive, but the 
issue of affordability is something which the Navy has taken a 
look at, the Department of Defense has taken a look at. You 
know how many programs across the services have been----
    Admiral Donald. Absolutely.
    Mr. Frelinghuysen. We have to have this----
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen [continuing]. This new generation of sub. 
How are you proceeding with the design and how is all that 
working out?
    Admiral Donald. Yes, sir. Maybe I can touch on the question 
you asked in the very beginning about the relationship between 
the Navy and the Department of Energy as far as who does what 
and what the shared responsibilities are and I am really at the 
nexus of that because my responsibility, ultimately, is to 
deliver a propulsion plant. That is the reactor plant which is 
the reactor itself and associated systems that provide the 
auxiliary systems to support that reactor.
    Mr. Frelinghuysen. And you do that for the Virginia Class 
now, right?
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. The ones that we have given you two 
every year, right?
    Admiral Donald. Yes, sir. I have--our program has done that 
since Nautilus went to sea on January 17, 1955. This will be 
our 27th design that we do.
    But that reactor plant is the responsibility of the 
Department of Energy, always has been. The rest of the 
propulsion plant, the steam turbines, the reduction gears, all 
of the other auxiliaries that go, that you actually take that 
power generated by the reactor and turn it into propulsion or 
electricity, that is a responsibility of the United States 
Navy. I execute that responsibility within the United States 
Navy.
    So, the significance of, and the reason the system--this 
was put in place back in the day by Admiral Rickover, was to 
have one person responsible for that propulsion plant that can 
coordinate and synchronize what is a very complicated 
undertaking to have it arrive on time, on the ship, ready to 
support construction of the ship. So, that is the relationship 
and how we do that.
    From a point of view of afford----
    Mr. Frelinghuysen. We know you follow in the Admiral's 
shoes, and we are admiring of that.
    Admiral Donald. I am proud to be.
    Mr. Frelinghuysen. And you have done, I think, a 
magnificent job under your predecessor. Even growing up I had a 
chance to meet Admiral Rickover. I think I was around--I have 
my Nautilus pin and ribbon and all that. I am supportive. No 
one fools around with submariners.
    But times have changed----
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen [continuing]. For a lot of these 
platforms we are talking about here.
    Admiral Donald. They sure have.
    Mr. Frelinghuysen. But this is one that we need. We need to 
get a move on here.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. And there has been a debate within the 
Navy, the big Navy, the Department of Defense about, you know, 
cost estimates today are tomorrow's cost overruns.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. And there have been some big numbers 
associated here.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. And the submariners often get what they 
want but, you know, we have got other parts of the Navy that we 
may need to fund as well and we do not want to--you know, it 
may affect them.
    I want to sort of get back to the design here. We have not 
been able to get our hands around exactly what this new version 
is going to look like and what it is going to cost.
    Admiral Donald. Yes, sir. The program has just recently 
completed its Milestone A, the Defense Acquisition Board signed 
off by the Undersecretary Dr. Carter. This is the first major 
program of the Navy to go through the revised DoD acquisition 
process. Having experienced that for the first time, I can 
assure you it was quite rigorous and a number of steps had to 
be accomplished to get there to drive the cost down.
    From the point of view of the Department of Energy, what is 
different about this propulsion plant and what we are trying to 
accomplish, I would say, are two key things. The first is--
well, three. The first is, we are trying to build a life of the 
ship core for this ship. Right now the Ohio Class goes in for a 
midlife refueling at about the 20 or so year--20, 21 year 
point. We believe that we have the technology and the ability 
to build a core that will last for, in excess, of 40 years.
    If we can do that and if we can eliminate that midlife 
refueling, significantly reducing the amount of time the ship 
has to spend in a shipyard, it allows the Navy to buy fewer 
ships, we believe, assuming they can get the rest of the 
maintenance for the ship to match our maintenance plan and we 
think we can do that.
    That eliminates that refueling, so instead of, for 
instance, 14 SSBNs now, we believe we can meet the requirement 
for the combatant commander with 12. That is a $10 billion 
savings assuming we are successful in building this core.
    The second technical piece that we are after is stealth is 
imperative for an SSBN. You have to remain undetected if you 
are going to achieve your mission. Acoustic stealth is 
critically important. The only way, we believe, that we are 
going to be able to achieve the stealth goals to ensure this 
ship is undetected on mission is we need a change in the 
propulsion system, we need to go to electric drive.
    Right now the ship is propelled by a turbine that drives a 
reduction gear that drives the shaft. We are going to change 
that to generate electricity to drive a motor that drives the 
shaft. Significantly quieter. We are looking at a ship that is 
going to be around until 2080. You need to build the acoustic 
margin in now to make sure that you are able to support that 
requirement further out in the future.
    Those are the key technologies. And then the third is 
affordability and what we are going after on affordability is--
--
    Mr. Frelinghuysen. Where is size in the overall equation 
here?
    Admiral Donald. Size is----
    Mr. Frelinghuysen. Size has a lot to do with what you are 
carrying on that--its mission.
    Admiral Donald. It does, and we----
    Mr. Frelinghuysen. That is a debate that goes on.
    Admiral Donald. There is a debate as to how many tubes, 
missile tubes. Right now the program calls for a 16-tube ship. 
That was a matter of--it was versus 20--that was a trade off 
that was made--the United States Navy made that trade off based 
on affordability. We thought that was the best that we could do 
given what the demands were for the budget for the rest of the 
Navy, for the rest of the--really, for the American taxpayers.
    Mr. Frelinghuysen. Who pays for the electric drive, DoE or 
the Navy?
    Admiral Donald. There will be--the electric drive, for the 
most part, is under a Navy-funded program.
    Mr. Frelinghuysen. Each year we sort of try to figure out 
who is doing what here.
    Admiral Donald. Exactly. Reactor plant design, the life of 
the ship core and that work, that is primarily within the DoE. 
The propulsion system is a Navy-funded responsibility. It 
does--I would be the first to admit to you that there is 
probably a little bit of murkiness in it because you end up 
having to do the integration and make sure that they fit 
together, so there has got to be a very close coupling, very 
close coordination among the engineering organizations, to make 
sure that it will work when we get out to the end of it, but 
that is the basic delineation.
    Mr. Frelinghuysen. We want to understand the murkiness. We 
also want to know what it is going to cost, if it is going to 
be affordable.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. You know, and what the cost of 
maintaining the number that we are able to get if we can afford 
the number that you desire.
    Let me yield to Mr. Pastor, and excuse me for going on at 
such length.
    Mr. Pastor. Not a problem, Mr. Chairman.
    How do you minimize the murkiness? What are you doing, you 
know, if you have propulsion at one end, probably the Navy is 
controlling that, and you have the core reactor, and you said 
that you would admit yourself that it is murky. How do you 
minimize that? What are you doing to do that? Because that is a 
hell of a lot of money that is being spent, number one, and 
after the money is spent, you do not want to--well, you do not 
want to have the engineering not be able to fit.
    Admiral Donald. Right.
    Mr. Pastor. So, what are we--what are you doing to ensure? 
Or, what are you and the Navy doing to ensure that?
    Admiral Donald. Well, I guess I would characterize the term 
murky, and murky in the sense that people who--when I am trying 
to explain it or when you are looking at it, I am sure that you 
would ask--you ask, and certainly do, we get a number of 
questions about how we have answered questions last year about 
what the specific work is that the Department of Energy does 
versus the specific work that the Navy does. That is well 
defined.
    We have very detailed work programs aligned to funding that 
comes from the Department of Navy and the Department of Energy, 
so I can go in and--again, we did this last year, provided the 
very detail work of what the dollars are going to buy, line 
item by line item. It is a technical work plan that we review, 
a budgeting plan that we review twice a year to make sure that 
the money is in the right place, the right work is getting 
done, and it is being done affordably.
    So, I do not want to be mischaracterized in saying that we 
do not know where that money is. We know exactly where that 
money is and we know what it is being spent on, and I can 
demonstrate to you what it takes to do the work.
    But it does take very close collaboration between the Navy 
and a very close synchronization to make sure that all the 
pieces come together at the right time so that the ship 
construction can occur on time. Very elaborate, and often you 
are shooting very far in the future to be able to do this. I 
mean, I am talking about having to do work today to have a 
component show up in the shipyard in 2019 within a matter of 
days. I mean, that is the nature of what it is that we are 
after.
    So, I want to assure you that I can very clearly show you 
exactly where the money goes and what we are doing for 
affordability on this ship.
    If I might, what our approach on this ship has been is that 
aside from the two key technologies that I mentioned to you, 
the life of the ship core and the electric drive, we are, to 
the greatest extent possible, reusing components from the 
Virginia Class design that we have already done, and wherever 
we can possibly do that, that is what we are going to do 
because those--you know, the mechanical systems, you do not 
tend to have the obsolescence concerns that you have with 
electronics, for instance, and we feel comfortable with a pump 
or a valve or something that we have used before, using that 
again and having it around until 2080. You will see, we have 
done that extensively throughout this design.
    And then also with the modular construction work that we 
learned on the Virginia, to increase affordability like we did 
on Virginia, we will continue to do that on this class of ship.
    So, it has been made clear to me, and as a taxpayer as 
well, and as a member of the United States Navy, that the 
affordability of this thing is critically important because it 
is going to affect the entire shipbuilding program.
    Mr. Pastor. You touched on the water pit----
    Admiral Donald. Yes, sir.
    Mr. Pastor. And as I remember, in 2010, I think we--I think 
there was $7 million and this year I think you are requesting 
$53 million?
    Admiral Donald. Yes, sir.
    Mr. Pastor. What is the status? What are the activities 
that are going on right now in Idaho in the expenditure of 
these monies and also to further the development of this water 
pit?
    Admiral Donald. Yes, sir. The work that is going on right 
now, this is a--this will be a major project, obviously----
    Mr. Pastor. Right, I understand.
    Admiral Donald [continuing]. In significant numbers. We are 
following the Department of Energy's plan for major project 
management, so there are critical design milestones that we 
have to meet as we are working our way through this. We have 
done our Mission Needs Statement. We are now defining the 
concept for what this facility needs to look like based on what 
the capabilities are that it has to provide. That work has to 
all wrap up such that we can start the construction by 2015, so 
it will be a progression of concept then into detailed design 
and then ultimate constructions start in 2015, completion in 
2020.
    So, the work that is going on right now is to make sure of 
one's siting. There is also the Environmental Protection Agency 
NEPA surveys that have to be done to make sure that we are 
compliant there. And then the technical design work to make 
sure that the facility meets the needs of the facility out 
there.
    Mr. D'Agostino. If I could add one thing on the project 
management piece. Admiral Donald mentioned the Department of 
Energy's project management approach. That approach has 
changed. Similar to what has been going on in the Defense 
Department with respect to looking at affordability and 
understanding very clearly what commitments the Executive 
Branch is putting itself forward to with respect to mortgages, 
out year mortgages, the same thing happened in project 
management space. We are going to be asking for a very rigorous 
design process to go through so that we do not commit to a cost 
scope or a schedule until the 90 percent very significant 
design stages are met. That way that ensures that when we get 
to the next critical decision, and the critical decision after 
that where we are requesting a commitment of additional 
resources, we absolutely know what we are getting into, how 
much it is going to cost, over what period of time.
    I think with Naval Reactors' track record in some of their 
capital projects, they are well situated in being able to 
respond to that.
    So, I am looking forward to getting that next critical 
decision paperwork through ourselves.
    Mr. Pastor. The authority on the Idaho water pit just came 
in--maybe I should----
    Mr. D'Agostino. He is loaded.
    Mr. Simpson. I just walked in, eight people walked out.
    Mr. Pastor. So, we are four years away from beginning 
construction.
    Admiral Donald. Yes, sir.
    Mr. Pastor. Where are we on the siting?
    Admiral Donald. The preliminary siting survey has been 
done. We have got--there are two options that we are looking at 
from a siting perspective and what we have to do now is there 
are surveys that have to be done on those sites, for instance, 
bore holes to determine is the soil construct, is it adequate.
    Mr. Pastor. Right.
    Admiral Donald. All of that has to be done. And that is--in 
fact, that is in progress right now as we speak to go and do 
that and determine the correct----
    Mr. Pastor. What is your timeline on the siting--making 
sure that you do the borings and make sure you are--from the 
two sites that you are looking at, which one is going to be the 
best one?
    Admiral Donald. Well, we know where we would prefer to have 
it. We have got a preferred site----
    Mr. Pastor. Sure.
    Admiral Donald [continuing]. And we will have to come 
through that decision in 2012 to finally decide----
    Mr. Pastor. So, you have maybe about a year, then, to do 
that.
    Admiral Donald. Yes, sir. To complete that work.
    Mr. Pastor. But then the siting will be done in 2012.
    Admiral Donald. Yes, sir.
    Mr. Pastor. I don't know, and Mike can probably tell me, if 
these sites are quite a distance apart or they are relatively 
close.
    Admiral Donald. In the sense of Idaho----
    Mr. Pastor. The question is this: Obviously you are 
required to do an Environmental Impact Statement.
    Admiral Donald. Yes, sir. NEPA survey.
    Mr. Pastor. NEPA. Right. And so are you doing one on each 
site, or are we waiting until you get the preferred site? Where 
are we at on that?
    Admiral Donald. We have got the preliminary work underway 
now, the non-site specific. There is always some baseline work 
that you have to do in support of it. That work is underway 
right now and the environmental survey work is aligned to the 
site survey work so that they synchronize and arrive at the 
same place at the same time.
    So, we are doing the environmental, the NEPA survey, the 
NEPA process, on the specified site once it is decided. So, 
that is coordinated right now.
    Mr. Pastor. And the site will be picked 2012.
    Admiral Donald. Yes, sir.
    Mr. Pastor. And how much further environmental studies will 
you need to do before you start construction on 2015?
    Admiral Donald. It is a standard NEPA process that will 
follow that will take, and I would have to get back to you on 
the specific timeline on when it would be complete, but it 
obviously has to be complete before we commence the 
construction in 2015.
    Mr. Pastor. Right.
    Admiral Donald. So, it is in that timeframe between 2012 
and 2015.
    Mr. Pastor. Do the site locations cause you any design 
considerations that are different from each other?
    Admiral Donald. It could, but at least right now based on 
the two sites that we have selected, the facility would look 
essentially the same. There may be some supporting activities, 
some supporting services such as rail lines and things of that 
sort that would need to be relocated based on which site we 
picked, but for the most part the facility would be the same.
    Mr. Pastor. All right, well, I will yield back and wait for 
the second round.
    Mr. Frelinghuysen. Thank you, Mr. Pastor. Mr. Alexander, 
thank you for your patience.
    Mr. Alexander. Thank you, Mr. Chairman. And good morning to 
you all. The Chairman was over there with his pen a while ago 
trying to figure out how old he will be in 2080.
    Mr. Administrator, I hope--I know you touched on it a 
little bit during your opening statements and I hope my 
question is not connected or parallel with some of the 
questions already asked, but the Mixed Oxide Fuel Fabrication 
Facility at the Savannah River site is currently scheduled to 
convert 34 metric tons of surplus plutonium into commercial 
nuclear fuel and the Pit Disassembly and Conversion Facility is 
essential to provide that feedstock. Could you tell me when the 
Department will move forward with the decision on that Pit 
Disassembly and Conversion facility?
    Mr. D'Agostino. Yes, Mr. Alexander. I will do that. And I 
might ask Ms. Harrington to add as well to my answer, that way 
you have the benefit of getting input from both of us.
    We have--we go through a process, as the Admiral described 
and as I talked about, on critical decision points within the 
Department where we start off with the mission need, which is, 
is there a mission, a need for this facility, the critical 
decision zero stage, move it forward to critical decision one, 
where we look at options and we start base lining and getting 
ranges down on our options, what we think the most likely--and 
every time we look at or move forward down that process, we 
always reexamine the previous critical decision to make sure 
that as time has passed, as clarity comes forward on what a 
facility costs and what the nation needs, that we reexamine the 
mission need to make sure that the basis for moving forward 
stayed the same. That's the process we're undergoing right now, 
and if you can talk a little bit about some specifics and then 
I can add to that if we need to.
    Ms. Harrington. Certainly. Several years ago there was a 
proposal that we looked at an alternative for the original 
Greenfield design for that facility to locate it in the K 
reactor area at the Savannah River site. We have done that 
review now, and we are in the process as the administrator said 
of going through the final internal hurdles before moving 
forward with the decision. Throughout this process, one of the 
main emphases that we have had internally in the department is 
how to contain the costs, but still provide the feedstock 
capacity for the Max Fuel Fabrication Facility that's required. 
Fortunately, we also have that feedstock issue covered because 
we already have at Savannah River sufficient plutonium oxide 
available to begin operations, including testing, of the 
facility when we're ready to proceed with that. So I think 
we're confident at this point that we have a good plan, and we 
hope to see that move forward quickly.
    Mr. D'Agostino. Consistent with that, the question of 
affordability and sustainability that we want to look at, as it 
drives all of our large projects whether they are in naval 
reactors or the nonproliferation program or in the weapons 
program, we want to make sure that each of these critical 
decision points we are able to wring out as much of that as 
possible so we have put forward a realistic plan. As Anne 
mentioned, we are in the final stages of that. We should be 
seeing something soon that we can go public with and to the 
Committee as well.
    Mr. Alexander. Okay, thank you. Ed, just a couple of 
questions. You said that it would cost about $20 million to 
dispose of or contain spent fuel oil on sight. How would you do 
that? What would it be? A pit or a tank or what?
    Admiral Donald. No. What I am referring to in that is if 
for some reason the water pit were not available, the new water 
pit were not available, to accept the new configuration of fuel 
that is coming off the ships in 2020 or if some material 
problem occurred, some equipment problem occurred, in the water 
pit that would preclude that fuel from being loaded into the 
water pit, then we would have to manufacture canisters and they 
are the canisters that we are going to be using to ship the 
fuel from the shipyard to Idaho by rail. The same canister 
system would have to be used, buy more of those and just hold 
those canisters on station in Idaho. In other words, the fuel 
would not be able to be offloaded into the water pit, would not 
be able to be examined, would not be able to be processed 
through the water pit to dry storage, holding on station. Each 
one of those canisters cost about $20 million. And, for 
example, on USS Enterprise, when she is de-fueled starting in 
2012 it takes about eight of those to take a load of fuel, a 
shipload of fuel, off of that ship. So that is eight times $20 
million. That is how much it would cost to temporarily store it 
in those canisters. We do not believe that to be the right way 
to do business, but that is what we are talking about.
    Mr. Alexander. Okay. And you expressed the desire to go 
from steam propulsion to electricity----
    Admiral Donald. Yes, sir.
    Mr. Alexander. Would the same power plant propel both?
    Admiral Donald. Yes, sir. It is really a matter of 
converting the energy from--it is still a pressurized water 
reactor plant. It still generates steam. The steam will turn 
turbines that generate electricity as opposed to turning a 
mechanical reduction----
    Mr. Alexander. So the cost to DOE would not be any 
different?
    Admiral Donald. Would not be any different, that is 
correct. Yes, sir.
    Mr. Alexander. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. Mr. Simpson, I think, was next in line. 
Welcome.
    Mr. Simpson. Thanks, Mr. Chairman. It is nice to be here. 
Sorry I missed yesterday's hearing. And I just came from one 
with the EPA so let me say first of all, thanks for the work 
that you do.
    Mr. Frelinghuysen. Appreciate it.
    Mr. Simpson. Bet you did not hear that before.
    Mr. Frelinghuysen. Thank you. That is a great way to start, 
sir.
    Mr. Simpson. No, I have appreciated working with you and 
the work that you do in nonproliferation naval nuclear reactors 
and other types of things. You guys, I think, do a great job.
    Mr. Frelinghuysen. Thank you.
    Mr. Simpson. Admiral Donald, let me ask you first. We 
talked yesterday about what the implication would be if the 
facility in Idaho is not built for the recapitalization for the 
new storage facility for spent nuclear fuel. What impact would 
that have on the Navy?
    Admiral Donald. I would characterize it in two parts. The 
first question is why replace this facility and first it is 
old. It is getting old and is starting to show wear and tear. 
It does not meet the current code for being lined. It is an 
unlined water pit. So the potential exists that a material 
problem could result or an equipment problem could result that 
would shut that water pit down, and then that would preclude 
moving fuel out of the shipyards. If you cannot move it out of 
the shipyards, you cannot take it off the ships. That means the 
ships cannot be refueled. That means the ships cannot go to sea 
after the refueling is done. The second part of it is why now, 
why it has to be done now. And again, part of it is age of the 
facility, but the other part of it is as we reach this period 
of time when there is heel-to-toe aircraft carrier refuelings. 
One comes in, gets refueled, it goes out, another one comes in 
right behind it. We cannot do that unless we change the way we 
remove the fuel from the ships. To be able to do it more 
efficiently, we had to have a new shipping container and a new 
fuel handling system, and that water pit is not ready to accept 
that type of fuel. It has to be ready by 2020 to do that. So if 
I cannot have it done by 2020, I will be restricted in the 
amount of fuel I can take off the aircraft carriers, and that 
will impact the ability to get those ships refueled and get 
them back out to sea.
    Mr. Simpson. And as was mentioned by Mr. Alexander, if that 
is not built, we have to buy some containers?
    Admiral Donald. Yes, sir.
    Mr. Simpson. What is it, M290 shipping containers?
    Admiral Donald. Yes, sir, M290----
    Mr. Simpson. What is the cost of each one of those 
containers? Do you know?
    Admiral Donald. $20 million.
    Mr. Simpson. $20 million?
    Admiral Donald. Yes, sir.
    Mr. Simpson. Who pays for that? Whose budget would that 
come out of?
    Admiral Donald. Those canisters would come out of Navy 
budget.
    Mr. Simpson. Out of the Navy budget. Okay. How many of 
those containers would we end up having to build? Any idea?
    Admiral Donald. Well, as an example, I used the Enterprise 
for instance, and we have shipping containers to handle the 
Enterprise fuel, but as an example, it takes eight of those 
canisters to handle a shipload of fuel off of the Enterprise. 
So you would have, granted a Nimitz is smaller. It has only two 
reactors instead of eight, but it is still a substantial number 
of canisters that you would have to buy to store that stuff on 
station.
    Mr. Simpson. So if we do not build this facility, it could 
be the prime example of what is penny wise and pound foolish?
    Admiral Donald. Yes, sir.
    Mr. Simpson. I had something else I wanted to ask, and I 
cannot remember what the heck it was, but I will think about it 
in just a minute. Let me ask you a question about our 
nonproliferation efforts.
    Mr. D'Agostino. Yes, sir.
    Mr. Simpson. The money requested in the 2012 budget is 
lower than the nonproliferation money in the 2011 budget, 
right?
    Mr. D'Agostino. In the 2011 request, right.
    Mr. Simpson. In the 2011 request.
    Mr. D'Agostino. Yes, sir.
    Mr. Simpson. I would have thought, given the recent 
agreement between Russia and the United States in reducing the 
stockpile, that our nonproliferation budget might actually go 
up. How did it go down?
    Mr. D'Agostino. It went down for a couple of reasons. Ms. 
Harrington can provide some of the details, but there are a 
couple of core reasons. One of the key reasons is the request 
from '11 was significantly higher in our Global Threat 
Reduction Initiative because, as you rightly stated, the 
President laid out a very aggressive nuclear security agenda to 
secure material around the world in four years. We knew four 
years sounds like a long time, but actually it is not. It goes 
by quickly, particularly with this kind of work. And so we put 
money in our FY11 request, frontloaded the request if you will, 
in order to get that early work under way. That is a big part 
of why it goes up relative to FY10. The FY12 number is very 
significant, but Anne, if you want to add to that----
    Ms. Harrington. Yes, sir. The FY12 budget in fact is almost 
half a billion dollars higher than the 2010 request, about 20 
percent. The FY11 was a significant bump up for all of those 
reasons. We did frontload a lot of activity in calendar year 
2010 in Chile, in Belarus, in Ukraine. Hundreds of kilograms of 
nuclear materials were removed and secured. In 2012 we feel 
confident that we can continue the pace that we have set with 
the budget request. The main part of the reduction in that 
budget is the removal of $100 million for our plutonium 
disposition effort with Russia. And that does not indicate that 
we are having problems with that effort with Russia. What it 
indicates is that they have not yet provided the milestones to 
us on their progress forward on plutonium disposition against 
which this money would be released.
    Mr. Simpson. What type of milestones are you talking about?
    Ms. Harrington. The pace at which they will build their 
facility to produce mixed oxide fuel, the testing and the 
timing of that. We have quite a well-established schedule for 
South Carolina's operations right now. They do not have a 
similar schedule, so we are not going to ask Congress for money 
that we do not know that we can spend yet. We will come back to 
you at a point on that when we feel confident that the Russians 
have provided a reliable schedule.
    Mr. Simpson. How has the relationship with Russia been 
recently? Have they been more cooperative in allowing us access 
to some of the closed cities and other places?
    Ms. Harrington. I have to say that both the combination of 
the new START Agreement and ratification of the 123 Agreement 
have really opened a lot of doors for our cooperation with 
Russia. Those two things were extremely important to them. A 
lot of activities were being held in abeyance while those two 
actions were considered. But we have a whole series of high-
level meetings coming up with Russians, particularly looking at 
opportunities in the commercial energy sector under the 123 
Agreement. That is not our area, but we work extremely closely 
with our colleagues in DOE's Nuclear Energy office because part 
of our commitment to expanding nuclear power worldwide is that 
it not expand at the expense of security. So that is part of a 
very close partnership internally in the department, and we 
look forward to coming back and discussing our progress with 
the Russians on that with you.
    Mr. D'Agostino. I might want to add just a little bit on 
that. On the first of April in 2009, President Obama signed an 
agreement with President Medvedev which looked at how do we 
bring the cooperation of our two great countries together so we 
can work together on issues that are of import to our nations. 
So there were a number of bilateral, what I would call groups, 
underneath that agreement that were formed. One in commerce, in 
the arts, but specifically for this area, in nuclear security 
and civil nuclear power, this group is chaired by Deputy 
Secretary Poneman and Mr. Kiriyenko who is the Director of the 
ROSATOM which has responsibility for all these types of 
functions. That has been absolutely marvelous in providing 
high-level, focused attention with direct milestones to push 
forward actions, things that we think are important for our 
equities which is moving forward on these milestones and making 
sure we have those milestones. This group allows us to tee that 
up for decision. You cannot shy away from it when your bosses 
are meeting, and we meet regularly twice a year at the high 
level. So those types of senior-level forcing functions are 
wonderful tools. We take maximum advantage of that and 
actually, as Anne mentioned, just the recent new START Treaty 
and 123 Agreement have really opened up the doors for us. So I 
think this is going to be a great year for our relationship, 
and we are looking forward to what we can do to improve that 
access, if you will, to insure U.S. dollars are being spent 
wisely.
    Mr. Simpson. As you know, we have had concern for a number 
of years about the Russian position relative to Iran and 
essentially helping Iran's nuclear program. How is that? Is 
that something you can talk about?
    Mr. D'Agostino. We would love to be able to talk to you in 
a closed session or in classified parry on that, in that area. 
I think you would be pleased.
    Mr. Simpson. Okay, I appreciate that.
    Ms. Harrington. But we could add in that area that the 
Russian negotiation with Iran on provision and take-back of the 
reactor fuel is extremely important, and as you know we engage 
in that activity on a worldwide basis. But that was a 
significant step, and Russia really pushed very hard for that 
agreement. So we feel there is a better partnership than there 
was on that issue some time ago.
    Mr. Simpson. Okay. Let me just state finally, and I suspect 
somebody might have stated it yesterday, as we have looked at 
reducing the overall spending in our budget, I think everybody 
in the room, everybody realizes, that you cannot borrow $.42 on 
every dollar you spend, and you are going to have to make some 
reductions. And that we have, at least on our side of the 
aisle, said that when we did HR1 we were going to reduce non-
security, non-defense, spending. Some people do not understand 
that the energy and water budget includes things that would be 
considered security such as NNSA, naval reactors, some of the 
other things that we do in this budget that ought to be 
considered as part of the security. It is easier just to say it 
is easy for people that put together these numbers for us to 
have to then make an appropriation to say well, we are going to 
exempt out Defense, we are going to exempt out Homeland 
Security, exempt out Veterans Affairs, and all the rest of the 
budgets will be reduced by X number of dollars without looking 
at the fact that the energy and water budget does have a 
national security component of it that ought to be taken into 
consideration when we are given our 302Bs to look at the 
reductions because the work you do is just as important as the 
work, in some ways more important, than the work that we do in 
some of the other areas that we are exempting out of not taking 
any cuts. So I just kind of wanted that on the record and for 
people to know that this is an important function that you do, 
and you are one of the examples that I hold up of a government 
agency that works, that does their job, and I appreciate the 
work you all do.
    Mr. D'Agostino. Thank you, sir.
    Ms. Harrington. Thank you.
    Mr. Womack [presiding]. Thank you, Mr. Simpson. Mr. 
Nunnelee.
    Mr. Womack. I understand in some previous testimony you 
have been able to determine which alternative to pursue to 
develop feedstock for MOX. Why have there been so many delays 
in selecting an alternative?
    Mr. D'Agostino. Mr. Womack, I will start and then I will 
ask Ms. Harrington to add to that. Because these are 
potentially multi-billion dollar facilities that we are 
embarking on, we are very keen on making sure that we reexamine 
the basis, make sure that our mission need still exists. In 
this case it is very clear we do need feedstock for the MOX 
facility. Our plan right now in our FY12 budget request does go 
forward and ask for resources to continue the design effort. 
What we are working on in the department is moving forward with 
our next critical decision, our critical decision one, on the 
feedstock for MOX, and that decision is fairly close to being 
finished. Anne, you want to add a little bit to that?
    Ms. Harrington. Specifically on the feedstock issue, 
because there have been some delays, in part to look at an 
option of combining this function together with other 
activities dealing with plutonium at the K reactor facility at 
Savannah River rather than do a Greenfield construction, which 
would be more costly and potentially much more limiting in 
terms of options and ramp-up availability. We have taken 
another look at K-Reactor as well as a series of options to 
both reduce cost and maintain the feedstock. Because there have 
been some delays, we have looked at the feedstock issue very 
seriously. And we have both available feedstock at Savannah 
River stored currently in the K-Reactor as well as other 
feedstock that we can get from Los Alamos through their ARIES 
Project which actually belongs to my colleague, Don Cook, who 
was here yesterday. But between those two and some other excess 
feedstock that we have identified, we can keep the MOX plant 
running for a number of years while the Pit Disassembly and 
Conversion project comes on line. So we are confident that 
those timelines will fit together very well.
    Mr. Womack. You spoke a moment ago in reference to another 
question about not requesting certain funds until you can have 
reasonable assurance that they can be expended. What assurances 
can you give the Committee that you have a plan to execute the 
funding for this project as you have requested?
    Ms. Harrington. Well, as the administrator said, we have a 
very defined set of critical decision steps for any large 
construction project. As we go forward into the next step, and 
that would be the CD-1 decision, that then moves us into the 
design phase. We will be carefully reviewing the results of the 
options and the cost savings that can be realized out of those 
options in this design phase study period. And then as we go 
forward, if we find that we can save money, we will reflect 
that in future year budgets certainly.
    Mr. D'Agostino. One thing I would add is in fiscal year 12, 
of course, we are asking for resources for this activity. The 
activities that we plan on doing include some of the finishing 
off of the design work that has to happen, particularly if we 
believe we are going to end up with this K-Reactor option. But 
in either case, whether it is this K-Reactor option or if it is 
a new Greenfield site, unlikely that it will be because we 
believe that is much more expensive, we need to have certain 
components and equipment inside that facility in order to 
convert the plutonium metal into an oxide. And that will be 
needed regardless of approaches, so we want to give you the 
strongest assurances that this request for FY12 does support 
what we need to do in order to put us on track. The critical 
decision piece is an important element of our path forward and 
decision on moving forward, but it is one that we want to get 
right. And it is worth it for us to take a little bit more time 
to make sure the numbers are right and that we identify options 
for cost savings within that critical decision so we do not 
obligate the taxpayer down a track that could put us in essence 
heading down a less-affordable track because affordability is 
very important for us.
    Mr. Womack. What are the numbers?
    Mr. D'Agostino. $220 million or so in fiscal year 12 is 
what we are asking for. It is certainly a significant amount of 
money, but it is money in order to purchase glove boxes and 
equipment in order to make these things go forward.
    Mr. Womack. And in relation to the total cost?
    Mr. D'Agostino. Well, this is part of the critical decision 
point. There are ranges. The previous Greenfield site had a 
very significant cost range that was draft but that was in the 
many multi-billions of dollars. We are looking for ways of 
taking billions of dollars off of that, appropriately given the 
fact that we are going to reuse an existing building. We think 
in general the idea that reusing a building that already exists 
and essentially outfitting the inside of it will be cheaper 
than building a new building that has the same type of 
equipment in it and that ultimately the nation will have to 
take care of that old facility. So in the end the D&D costs 
will hopefully--the overall lifecycle costs we believe are 
significantly lower. And earlier on Ms. Harrington talked about 
a study that we had performed about a year and a half or so ago 
looking at that, and that helps us push toward the K-Reactor 
approach as being the critical decision that will likely come 
forward in the near future.
    Mr. Womack. Okay. Mr. Pastor.
    Mr. Pastor. I think you have another member who has not had 
a chance to ask a question.
    Mr. Womack. He waived his right.
    Mr. Pastor. Oh, did he? Okay. All right. When you were 
asked the question about the difference in the budgets and how 
the weapons end is going up, nonproliferation is going down, 
whether or not that was a step back from the Prague Commitment. 
How do you see it? Are we stepping back from Prague?
    Mr. D'Agostino. Absolutely not, sir. We are actually 
stepping forward with the Prague Commitment with both feet. We 
recognize these are very complicated programs, whether it is 
naval reactors, nonproliferation, or the weapons program, 
programs are fairly dynamic. They go up and down depending on 
when we are recapitalizing a facility or what work is coming 
online when. Early on for the nonproliferation activity, we 
knew we needed to step forward fairly quickly in order to meet 
the President's four-year commitment. And Anne's program has a 
very well-defined set of work that is going to get done. And 
the plan that we have forward, including this dip which is very 
little of that dip is actually due to the security effort which 
is part of our planned program of work. It is just get the work 
done early because we expect some challenges later on as we go 
off and implement it. So let us start them early, and that is 
what happened in the nonproliferation side. The weapons side is 
the recapitalization of these very large facilities. These just 
so happen to be facilities that serve not only the weapons 
program, but serve the nonproliferation program and actually 
serve the naval reactors program. All the highly enriched 
uranium that Admiral Donald uses in his submarines or the 
nation uses in its submarines comes through the Y12 plant and 
will be coming through the uranium processing facility and our 
highly enriched uranium materials facility in Tennessee. So 
these are facilities even though they are in the weapons budget 
and make it look like we are spending more money on weapons, 
actually it is a nuclear security program budget because these 
are facilities that address that. Because in a recapitalization 
effort you usually spend some money upfront, figuring out what 
your design is and then you really get into construction with 
some large dollars later on, we are in that transition mode on 
these two recapitalization projects. We have been shifting. We 
have been spending a fair amount of money on the design effort, 
and over the next few years we are going to be shifting that 
design effort into construction so the dollars will look 
bigger. So taken as a one-page standpoint, it looks like more 
money on weapons, less money on nonproliferation. The reality 
of it is it is more money on nuclear security because that is 
what the President's agenda was all about.
    Mr. Pastor. I was very happy to hear this morning that 
Russia with the START Treaty and other agreements had become 
more cooperative because I was under the impression that some 
high-level Russian officials had less commitment to nuclear 
security with us. And my understanding was that this would have 
caused us some problems, obviously with nuclear security. But 
in my new understanding I am very hopeful and happy to hear 
that there is greater cooperation. Go ahead.
    Ms. Harrington. I was going to add that Russia 
unfortunately is also a frequent target of terrorist attacks, 
and that is a common theme in our undertakings with them. An 
explosion at an airport is one thing, but an explosion in an 
airport contaminated with cesium would have been far different. 
And so these are topics that may not make a lot of headlines, 
but certainly these are issues that we discuss in a very 
serious way.
    Mr. Pastor. You also spoke about some other countries. I 
think I heard Chile where you had removal and there were some 
other countries. Have we negotiated other cooperative 
agreements for safeguards or security for removing nuclear 
materials? Are there countries that we have created agreements 
with?
    Ms. Harrington. Yes. We have a number of countries that we 
are moving forward on, some of which we have already 
accomplished some of the removals, but have not yet completed 
the work, for example, Belarus and Ukraine. At the end of last 
year, Belarus in particular was a huge breakthrough for us 
because that is a country with which we have not had very 
positive relationships for many years because of the 
leadership. So the fact that working together with Secretary 
Clinton and the State Department, we were able to execute that 
agreement and then begin removing materials was very 
significant. Much closer to home we already have an agreement 
with Mexico on removal of material, and I think you understand 
the immediacy of accomplishing that. Vietnam is another 
country, but basically we have fundamental agreements or have 
moved far toward them for all of the major target countries 
that are under the lockdown program.
    Mr. Pastor. You mentioned earlier about the $100 million 
that you will not be spending in Russia.
    Ms. Harrington. Yet, spending yet.
    Mr. Pastor. Yet because of the milestones, they have not 
met some of the milestones.
    Ms. Harrington. Right.
    Mr. Pastor. At least in the past it has been my experience 
that because of lack of transparency with the Russians and what 
they are doing, what they want to do, costs, et cetera, that in 
our budgets we commit X number of dollars, and they get frozen 
up and then it cannot be used for other purposes. So this 
transparency is very important and I am assuming that you are 
committed more and more to develop this transparency so that we 
are not locking up money for these programs which can't be used 
for other needed purposes?
    Ms. Harrington. That is absolutely correct. I have been 
working in Russia since 1991 and have a lot of lessons learned 
from that experience. So, yes, watching where our dollars go 
has always been one of our very high priorities and that covers 
the whole scope of issues, whether it is insuring that we are 
not taxed on provision of assistance to actually having the 
opportunity to see where our equipment goes and how it is being 
used and open access to the books basically. So, yes, that will 
not become any less of a focus for us.
    Mr. Pastor. After reading the Nuclear Posture Review, I 
decided to focus more on the GAO studies. In December, GAO came 
back and said that the President has started this initiative 
and it will take many agencies working together. And one of the 
concerns GAO had was that there was not enough detail in terms 
of how these agencies were going to cooperate and be able to 
implement the initiative. They talked about what sites, what 
facility in those sites, et cetera, what the plans were and all 
that. And yet I guess as you develop this budget, it had 
hopefully looked at the estimated costs and timeframes and the 
scope of work. Were those considerations given in developing 
your budget or what consideration was given to that lack of 
detail that the GAO pointed out a couple of months ago?
    Ms. Harrington. Well, I am happy to say that the flaw that 
the GAO identified does not exist anymore. There is a very 
strong interagency team that is led by the National Security 
Staff. We meet on a regular basis. We have a system for 
prioritizing, both material risk and country risk, that drives 
how we schedule our programs. And that is not just our 
programs, but similar efforts out of the Department of Defense, 
Department of State, and so forth. In fact, we will be having 
one of our regular, what we call our bridge meetings, with the 
DOD and Defense Threat Reduction Agency folks next week, the 
sole purpose of which is to coordinate our work and to figure 
out how by working together we can make these material removals 
better and faster. So I would like to reassure you that the 
interagency cooperation is functioning well on this.
    Mr. Pastor. Does functioning well also include greater 
detail or more specific responsibility and timelines and costs, 
et cetera.
    Mr. D'Agostino. Yes, we do have a very clear plan because 
you appropriate essentially the largest nonproliferation 
program the country has. In fact, I would say in the world 
comes out of the support the Subcommittee provides us. We have 
a very clear four-year plan on this. GAO identified some 
improvements that need to be made in the interagency 
coordination to make sure that we are well integrated and 
complement each other in driving some consistency across the 
enterprise, and we take that advice very seriously. That does 
need to move forward. I will say there are some areas of the 
report that we did not quite completely agree with the GAO on, 
though the report was helpful. The security upgrades were 
performed by the NNSA on the civilian research reactor sites. 
The key for us is moving even beyond that as the GAO identified 
in what is known as material consolidation and conversion. We 
want to convince and I believe have got a good plan with our 
Russian colleagues to convert their research reactors. And as a 
result, of course, of the GAO's attention and our attention on 
this topic, we verified the shutdown of three Russian research 
reactors. We have secured commitments to shutdown five more, 
and we have actually started the feasibility studies because 
these reactor conversions are a fairly big deal, turning it 
from highly enriched uranium to low enriched uranium, we 
started the feasibility studies on the number I think are even 
up to a half a dozen or so on this area. So what the GAO study 
helps us do is make sure that people are aware of it, identify 
some things that we think we did slightly better than the GAO 
report identified, but of course I am a little parochial being 
the administrator. At the same time, I think there is a good 
point on interagency coordination, and that report has helped 
us put some attention on that.
    Mr. Pastor. Maybe I am wrong, but I recall the number 71 
for research reactors to convert?
    Mr. D'Agostino. I think 69, not 71, have been converted.
    Mr. Pastor. There are three in five? Is that what I heard?
    Mr. D'Agostino. That is right. There will be I think----
    Ms. Harrington. The feasibility study, which is by the way 
being supported by Argonne, is being undertaken now and the 
scientists are already working on this to look at six new, six 
reactor conversions in Russia. Part of the challenge with 
Russia is they have a lot of different types of research 
reactors. They did not have a consistent model. So we are 
looking specifically at that new set of reactors and hope to 
move forward fairly quickly on that. I should note that on the 
reactor conversions worldwide, Russia already is working with 
us in terms of taking back the spent fuel from reactors that 
they have built overseas. So when we talk about spent fuel or 
HEU removals from Belarus and Ukraine, for example, those 
materials are not our burden in the United States. Those are 
going back to the country of origin, which is Russia. So we 
have a very close working relationship already on that front.
    Mr. D'Agostino. Mr. Pastor had it right. There were three 
that were shut down with commitments on five more, which would 
add to the total of 69 or 71 that are currently done. There are 
many tens more that need to be done of different types of 
research reactors in Russia alone, and this is where what we 
call the Poneman-Kiriyenko Working Group will allow us to work 
with our Russian colleagues to drive them to finish the job 
there in that area. It will take years. I will not pretend it 
is going to be done quickly, but it will take years to do this 
work.
    Mr. Pastor. I have been informed that GAO has said that the 
studies, the six studies, are delayed right now.
    Ms. Harrington. They have started. They have started.
    Mr. Pastor. Oh, they have. They were delayed and now they 
have started?
    Ms. Harrington. Correct. Correct, and as the administrator 
said, it is in part to the high-level pressure that we can 
continue to put on these issues through the Poneman-Kiriyenko 
channel.
    Mr. D'Agostino. They do not typically happen if it is done 
at staff level because there are always a million excuses that 
maybe both sides might even use if you will and say, well, I 
have to get my boss to agree. But when you have the bosses in 
the room, you can get agreement pretty quickly and that is a 
wonderful thing.
    Mr. Pastor. I will let the chairman get resettled and then 
I will yield back.
    Mr. Frelinghuysen [presiding]. Okay. Mr. Simpson.
    Mr. Simpson. Thanks, Mr. Chairman. Sometimes we make your 
job more difficult, I'm sure, when you are dealing with Russia 
and other foreign countries. The last time Ed and I were there, 
watching Ed talk to the Russians in Spanish, and the Russians 
answering in Russian, and we just sat back and it looked like 
they understood each other. We thought it was an amazing piece 
of diplomacy, but we had no idea what they said.
    Mr. D'Agostino. Maybe he signed us up for more reactors.
    Ms. Harrington. Military diplomacy with Cuba.
    Mr. Simpson. That is how we got to 69 instead of 71. 
Anyway, I remembered what----
    Mr. Pastor. All of them, whatever the number is.
    Mr. Simpson. I remember what I was going to ask, Admiral. 
We have a Governors' Agreement. The DOE has agreements with 
most states. You come into play because the naval reactors are 
out at Idaho, and we have this spent fuel stored in Idaho. We 
all know that the cave in Nevada is in limbo or off the table 
or wherever it is, it is out there in the ether somewhere. The 
Blue Ribbon Commission is going to make some recommendations. 
We all anticipate that reprocessing or recycling of fuel will 
be one of their recommendations, although we do not know that 
yet. What are the challenges for the Navy in reprocessing their 
fuel versus commercial fuel that is stored around the country?
    Admiral Donald. Yes, sir. We are not privy to what the Blue 
Ribbon Commission's final decision is going to be on that, but 
we have briefed them and made them aware of what our system is 
like, what our fuel looks like, and how it is different. And 
that is really the essence of it. Two points. First off, our 
fuel is very different from what commercial fuel is. And for a 
closed hearing if you would like more details about how that 
is, I can do that, but it is classified at this point. But it 
is very different. It would require a different system for 
reprocessing if you chose to do that. Essentially, a similar 
technique, but a different system, a different facility to do 
it in if you were going to do it in an efficient manner and 
that is very expensive. And the amount of fuel that we are 
talking about in a relative sense, if you look at what Yucca 
Mountain was, it was about 65,000 tons metric tons of fuel 
would go in that mountain when it was complete. Of that 65,000, 
we would be 65 metric tons so almost negligible if you consider 
the amount. So the idea that reprocessing would be a part of 
our future in that I would say is probably unlikely. So some 
other type of a long-term storage would have to be the solution 
I would believe. Now, obviously the Commission will evaluate 
that, and we will see where we come out on it, but that is----
    Mr. Simpson. So essentially you are talking about a 
completely different reprocessing facility for a very small 
quantity of the overall fuel, which would make it fiscally 
impractical to do that?
    Admiral Donald. Yes, sir.
    Mr. Simpson. Which means at some point of time, we are 
still going to have to have a geological repository somewhere? 
I am not suggesting it is Yucca Mountain, but somewhere, to 
store this at. How is that going to affect the Governors' 
Agreement that you have with the state of Idaho in the year 
2035? And I say that in terms of we have to remember what the 
Governors' Agreement is, that there are timelines that have to 
be met in there and there are penalties that are acquired if we 
do not meet those timelines and those steps along the way. But 
the overall intent of the Agreement was to get both the DOE and 
the Navy busy in trying to find a permanent repository. To me 
the year 2035, while I would get the crap kicked out of me, I 
guess, is the best way to put it. To me it is not--I do not 
think it is written in stone. It is that the people of Idaho 
want to see progress toward a permanent repository on things, 
and that to me is the important thing. What do you think all of 
this does to the 2035 deadline with the State of Idaho and with 
the deadlines we might have with other states? Of course, those 
are DoE things.
    Admiral Donald. Yes, sir. As you are aware, I am sure, we 
had some concerns about that 2035 date and what it really meant 
from the beginning because we obviously had a desire, and I 
believe it was a mutual desire with the State of Idaho, that we 
not leave Idaho, that we do have a--there is a function that 
the Idaho National Laboratory and the naval reactor facility 
fulfills for national security and it is important work. And 
based on that mutual agreement we did sign an addendum to the 
Governor's agreement that provided for a future beyond 2035. It 
still does not relieve us of our responsibility for preparing 
our fuel, our spent fuel, for ultimate disposal, notionally a 
land repository. That is what it was in the beginning. So there 
is still a significant issue hanging out there about what are 
we going to do with this fuel absent Yucca Mountain or where it 
turns out to be the right answer.
    What we have tried to do is to the extent that I can 
control, the things that I have control over that we are living 
up to our obligations of preparing to be among the first, which 
is a specific requirement of the Governor's agreement, among 
the first to move fuel to whatever that location may be. We 
have committed to that. We have done that. We built the 
facility and we are moving fuel into dry storage. And I think 
right now I have something on the order of 38 shipping 
containers of fuel that is ready to go. It is road-ready to be 
shipped. And we will continue that.
    And we are on track, if you look at the trajectory, to get 
the fuel out of the water pit, ready for going. We will meet 
our obligations absent the fact I do not have anywhere to put 
it right now.
    Mr. Simpson. Right.
    Admiral Donald. And the State has been remarkably patient 
with us and supportive of what it is that we are doing. We as a 
nation have an obligation to come up with the final solution. 
And when that is ready, we will be ready to support it.
    Mr. Simpson. And dry storage is safe, secure, and not a 
threat to the aquifer or any of that kind of stuff, isn't that 
true?
    Admiral Donald. Absolutely. Yes, sir.
    Mr. Simpson. Thank you. One other area that I would like to 
ask, Administrator, is the Middle East, we know, is kind of in 
a turmoil right now.
    Mr. D'Agostino. Yes, sir.
    Mr. Simpson. We have spent a lot of money on mega ports, 
our second line of defense, in that we wanted to be able to 
intercept nuclear material and other contraband before it got 
to the United States through these mega ports. We visited some 
in Alexandria and in Oman, countries that--well, obviously 
Alexandria; Oman is in that region.
    What is the threat to these mega ports? Are they still 
working? Do we anticipate that? What are we doing to make sure 
that they still function as intended and to ensure that the 
officials operate those ports as intended.
    Mr. D'Agostino. Right. Right.
    Mr. Simpson. We just kind of supply the equipment and 
stuff.
    Mr. D'Agostino. Yes, sir, we do, but we also have 
agreements, operating agreements, with those countries to make 
sure over a period of time that they are maintaining the 
equipment. It is U.S.-supplied equipment, so we have an 
interest in making sure the operations continue, make sure they 
are maintaining equipment. If it is part of the Secure Freight 
Initiative and Container Security Initiative, that information 
comes in actively on a regular basis in--and I don't know if 
these two particular ports are--it comes into a central 
location here in the U.S.
    Because of the types of programs these are that require 
active involvement of folks in Anne's program, we have 
essentially regular communication with folks.
    As I mentioned earlier, we operate in over 100 countries 
around the world. The fact that these folks are kind of 
engineers or technicians or experts, you know, when the 
political conditions change, they go up and down, but it is 
very well understood at the ground floor of the deck plates we 
say in the Navy that this is an important thing to keep up. So 
what we found is the people, our colleagues, if you will, in 
these other nations that maintain this equipment, love to get 
this kind of cooperation, want to maintain it. They have a 
strong interest in doing so. I don't have any specific 
information in the last two weeks or so that say we have a 
problem, yet that is probably something that we should check 
on.
    Mr. Simpson. If we were to find out in one of these 
countries that, for some reason, due to the turmoil or 
whatever, that they stopped doing these inspections and stuff 
would we then reject any shipments that came from those ports?
    Mr. D'Agostino. Well, that is----
    Mr. Simpson. I mean, some of them, if you look at Salalah 
and it is huge, you know. Essentially you are going to stop 
commerce.
    Ms. Harrington. Yeah.
    Mr. D'Agostino. That is a great question. But Anne, and 
then I will jump in, okay?
    Ms. Harrington. Well----
    [Laughter.]
    Mr. D'Agostino. I can do that since I----
    Ms. Harrington. Thank you.
    Mr. D'Agostino. And she has to like it.
    Ms. Harrington. Now, Bill, as you know, you know, very few 
shipments come to us directly from these ports. Most of those 
shipments would be transshipped through another port.
    Mr. Simpson. Right.
    Ms. Harrington. So because we have a fair amount of 
outreach and excellent cooperation, for example, in the major 
transshipment ports, you know, in Europe, in Asia, et cetera, 
those shipments if we have suspicions even that they are not 
being properly inspected, we can always alert other ports to 
increase their inspection of the cargo.
    I would just like to illustrate, though, that, you know, by 
working as a team across NNSA we helped build this community 
of, you know, really quite dedicated officials throughout the 
world. I mean, these people understand what the risks are 
because many of their countries have been subject to terrorism 
and many lives have been lost.
    Mr. Simpson. Right.
    Ms. Harrington. Yesterday, I had a conversation with 
Admiral Krol, who heads our Emergency Operations Group, and he 
had just been out on a training mission. We do joint training 
missions together, you know, for port security and emergency 
response. And, you know, was doing basically refresher course, 
reminding people of the proper use of the equipment. And, you 
know, he came back and saying, okay, I have a whole new 
approach how we are going to do this the next time out. So this 
is a constant renewal process that we have. Once--you know, and 
the sustainment of these facilities and of these networks is 
absolutely critical.
    Mr. Simpson. How much do we spend in our budget maintaining 
these facilities and these mega ports? And is there a point in 
time when it becomes the responsibility of the host country to 
maintain these facilities? And, I mean, we provide the 
equipment and stuff and a lot of the training and other things. 
And I understand we do it because it is in our own best 
interest to do so.
    Ms. Harrington. Right.
    Mr. Simpson. Will it always be a part of our budget?
    Mr. D'Agostino. Well, what I would say on that is 
sustainability and partnership is a key element of this, so 
there is--you know, we do provide the equipment and the 
operating protocols. There is a commitment on the part of the 
incoming nation to operate the equipment, to provide data, to 
work cooperatively with us. In Russia, for example, just as an 
example, in our second line of defense core program we have an 
agreement to install well over 300 radiation detectors at key 
border crossings around Russia. Russia has agreed to pick up 
all of that responsibility to maintain these facilities, a 
hundred percent their cost associated with doing that.
    Mr. Simpson. Just out of curiosity let me ask you, why do 
we pay for that? I mean, as you said, Russia has been the 
subject of attacks and so forth.
    Ms. Harrington. Right.
    Mr. Simpson. And it is in their best interest to do that. 
Are we doing it just because they cannot afford it? And 
obviously, we cannot either. Is that how that works?
    Mr. D'Agostino. No, no, that is not--well, how it works is 
to ensure to--you know, we do want to lead. We are the United 
States. We are--we believe--and I think--and this is one of the 
key elements of the Prague speech is to make sure--and the 
Nuclear Security Summit we had last year, is we want to lead, 
but we also want to say that this is not--we are not going at 
this alone. This is not our job. This is not our complete 
responsibility. Obviously, we have a great interest in making 
sure there is not an RDD, radioactive dirty device or an 
improvised nuclear device that goes off anywhere in the world.
    Mr. Simpson. Right.
    Mr. D'Agostino. Certainly not in the United States. And 
from that standpoint, leading in--you know, I would say 
obligates us to a certain extent. And we have taken that 
obligation for a number of years in saying we have got the 
equipment, we have the technology, we want to share it with you 
because it is important. We want you to install this and then 
we want you to pick up the load. And that is where we are right 
now with Russia and with other countries.
    And this is the whole point of the second-line of defense 
programs is equipment is relatively inexpensive. So usually the 
longer costs are the year-to-year-to-year operating costs 
associated with it because you have to have people and you have 
to train them and you have to exercise them. And so what we 
want to do is provide this relatively inexpensive part of this 
very complex job and have other nation states pick up the 
responsibility. And we are seeing that come into play.
    Are we completely absolved of our financial or what we 
believe our financial obligations here? Not yet. I think this 
is a transition period that has to happen. I am a firm believer 
in we have to get these 47 nations and hundreds of other 
nations that we--or a hundred other nations that we work with 
to get to that point.
    Anne, you might have more to add on that.
    Ms. Harrington. I think another essential element of this 
is for us to feel comfortable that what is being sent through 
these ports or coming across these border crossings is actually 
being detected properly. We want to understand what the system 
architecture is, maybe have a hand in helping design that 
system architecture, understand how capable their response 
forces are, their analytical capabilities, et cetera.
    It is one thing to just hand over equipment, but it is 
another thing to then come back here and feel confident that 
what is coming through those ports is actually being properly 
screened. And that really is the long-term objective is to have 
that insurance for us.
    So if that means, in some cases, we might do a little bit 
more training because we feel there are still some gaps, that 
could be possible. But the bottom line is that in a three-year 
transition period we should go from our role being major to 
being very minor and just being in sustainment mode.
    Mr. Simpson. Okay, thank you. Sir.
    Mr. Frelinghuysen. Thank you, Mr. Simpson. Mr. Womack, 
thank you for standing in for me. I had a chance to----
    Mr. Womack. My honor, Mr. Chairman.
    Mr. Frelinghuysen [continuing]. Mix it up with the 
Secretary of Defense and Admiral Mullen. I could not resist, 
so----
    Mr. Womack. Well, you came back quickly. I am fearful that 
maybe you were unsuccessful.
    Mr. Frelinghuysen. The time is yours.
    Mr. Womack. Mr. Chairman, I have no further questions.
    Mr. Frelinghuysen. Great.
    Mr. Womack. Thank you, sir.
    Mr. Frelinghuysen. I asked some questions about Libya and 
no-fly zones and evidently it got some feathers ruffled.
    Admiral, I want to get back to where we left off, and I 
apologize for my absence. I sort of want to understand where we 
stand on the final design for the reactor technologies that are 
going into the new Ohio class. And what is the timeline here? 
And what is the final design going to look like? We have talked 
about it.
    Admiral Donald. Yes, sir. We are----
    Mr. Frelinghuysen. In other words----
    Admiral Donald. Sure.
    Mr. Frelinghuysen [continuing]. You own the reactor 
technology for everything we have now----
    Admiral Donald. Yes, sir, we do.
    Mr. Frelinghuysen [continuing]. That the Navy has.
    Admiral Donald. We do.
    Mr. Frelinghuysen. You know, you have the experts. You have 
talked about the workforce and the need to keep it up to speed, 
but where are we?
    Admiral Donald. We are, right now, in the--it is the 
concept development and preliminary design work that is going 
on right now. For instance, if you look at the reactor itself, 
we have to make a decision here in 2012 on materials that would 
be used in that reactor itself. And that is a key decision 
because the material choice will determine whether or not we 
can achieve a 40-year lifetime on that core.
    Once that material selection is made, then you start going 
through the qualifications of those materials to ensure that 
you can manufacture it. You go through the thermal hydraulic 
testing. You have to prove that the dimensions are correct in 
the core, all very finely set. But that piece of it is going on 
right now.
    At the same time, we are working on arrangements within the 
ship itself, and that is very important.
    Mr. Frelinghuysen. This is the narrowing----
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen [continuing]. To the ship's----
    Admiral Donald. Exactly.
    Mr. Frelinghuysen. The design of--yeah.
    Admiral Donald. You have a certain constraint in size, so 
you have got to fit this thing in the size. You also have to 
size the reactor plant for whatever the speed requirement is 
that the ship has to go, whatever the acoustic quieting piece 
has to be. And then you have got to--in the end you have to got 
to fit it all in the ship, and that is no small feat in a 
submarine as confined as the spaces are. So that arrangement 
piece is very important and that will be a key part of what we 
do over the next year.
    Ultimately, we will have to have the individual equipments 
designed sufficiently mature so that when we go and start 
ordering materials, we start ordering the components 
themselves, such that they can actually arrive in the shipyard 
on time between 2017 and 2019, we are ready to do that. And the 
timeframe for all of that, that early design work, is right 
now. That is when we have to settle all of these key issues and 
essentially lock in the design and the capability of that ship 
really over the next year.
    Mr. Frelinghuysen. How do you know--and this is the life of 
the ship-type core--that you are actually going to get what you 
want to get?
    Admiral Donald. We----
    Mr. Frelinghuysen. You have explained why you are going to 
achieve savings.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. But in reality, how are you going to 
make what is, you know, a considerable leap here?
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. We understand the rationale behind it.
    Admiral Donald. Yes, sir. There are two pieces to it. The 
first is there is a physics element of it that we have had 
great experience in the cores that we have built previously. 
For example, if you look at the Nautilus when it was built, it 
went to sea in 1955. That core lasted for two years. The 
Virginia that is at sea, the class is at sea right now, that 
core will last for 33 years. So we understand the physics 
associated with it and we have also got experience with all of 
the materials. Maybe for this particular core not all these 
materials in the same combinations, but at least in the sense 
of we have worked with these materials before and we are very 
confident that we can get the proper amount of fuel, the 
physics performance, and the thermal hydraulic performance out 
of this core that will last for 40 years based on experience 
and on the science itself.
    Mr. Simpson. So are there alternatives within the areas 
that you are examining, to the materials that you are 
contemplating using?
    Admiral Donald. Yes, sir. As with any engineering decision 
that you make there are tradeoffs. There are tradeoffs between 
capability, between cost, and certainly that is a matter of 
importance to us. There is a tradeoff on manufacture ability. 
Can you actually make it in a production sense in an affordable 
way? All of those trades are what are being considered right 
now in this early stage of the design work.
    Mr. Frelinghuysen. We still mint Virginia-class submarines. 
We have given you a green light to go ahead. I mean----
    Admiral Donald. Yes, sir, you have.
    Mr. Frelinghuysen. I mean, and I think people were 
generally happy about that.
    Admiral Donald. Sure, it worked.
    Mr. Frelinghuysen. It maintained the industrial base. It 
keeps a lot of people working. What is the mix for this new 
generation of Ohio sub? You have some of the same workforce 
needs, right? Is there any transferability of people?
    Admiral Donald. There is, yes, sir.
    Mr. Frelinghuysen. It is a little bit of a mystery to me 
why some of the good people that have been working in the 
uniform as well as our industrial base can't sort of, should we 
say, recommit their intelligence and institutional knowledge to 
what you are doing.
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. We are not talking about a separate--
setting up a new industrial base here, are we?
    Admiral Donald. No, absolutely not. In fact, there is a--
one of the--in the early stages of decision-making to start 
this design, one of the key considerations was the industrial 
base and the engineering and design workforce because we were 
coming off of the Virginia design at that time. We were 
starting to come off of the design work that is being done on 
the Ford-class aircraft carrier reactor plant.
    And there was a genuine concern back in the early, you 
know, 2004/2005 timeframe that if we did not have work for 
these folks to do, that we would lose them and that would be a 
very difficult thing and very expensive thing to reconstitute. 
So we looked at that very carefully. And there will be a 
significant transfer of talent, engineering and design talent, 
between those projects that will move over and start working on 
the Ohio replacement program. We will have to deal with, again, 
that aging demographic that we talked about. Some of these 
folks are going to retire and not be around.
    And then the second thing, there is a ramp-up, a natural 
ramp-up in the number of people that it takes to actually do 
the design itself. But it is less than what it would have been 
had we waited much longer and allowed the design force to 
decay.
    Mr. Frelinghuysen. Your budget request indicates that naval 
reactors intends to hire 800 contractors this year?
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. And program direction for Federal 
employees continues to increase?
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen. This is over and above the existing 
workforce that has many of these same----
    Admiral Donald. Some of that----
    Mr. Frelinghuysen [continuing]. You know, talents and 
expertise and----
    Admiral Donald. There is a combination. Some of that is a 
ramp-up for the new work. There is also some hiring associated 
with accounting for attrition and for retirement. but there is, 
in fact, an increase in personnel needed to support the new 
design work.
    Mr. Frelinghuysen. All right.
    Staff. I believe that you wanted to wrap up the hearing by 
12 o'clock. Could you talk about the pensions?
    Mr. D'Agostino. Certainly. Absolutely.
    Staff. You have I think 71 million in this budget, another 
168 in weapons activity, and most of these are monies to pay 
pensions for legacy employees, for the people who work for 
University of California, as I understand.
    Mr. D'Agostino. That is right, sir. Yes, there is----
    Mr. Frelinghuysen. Well, if you would like to explain it 
because I----
    Mr. D'Agostino. Absolutely. It is a little complicated, for 
sure. I mean, the----
    Mr. Frelinghuysen. But as bright as you are you can do it 
in a few minutes.
    Mr. D'Agostino. Absolutely. Yes, sir.
    Mr. Frelinghuysen. You have got 10 minutes.
    Mr. D'Agostino. Hopefully, I will do it in less, sir.
    Well, pensions have become--it used to be a topic we did 
not spend a lot of time talking about, but because of a 
combination of a couple of events together got us on this topic 
about two years ago and it really ramped up. Basically the 
events were the financial markets' reduction in equity--in the 
financial markets, the value of the financial markets, combined 
with low interests rates because that has an impact on how 
actuaries take a look at how much needs to be in the fund in 
order to pay forward. And if you don't have the growth that you 
expect, then you have got to put more money in.
    Combined, the third thing, it is like the perfect storm. 
The third thing is putting the Pension Protection Act 
requirements on--as a liability on to these particular 
contracts. So those three things together got us on the topic 
in the Department on the subject of pensions.
    At the same time, a few years ago, if you recall, we had 
transitioned the University of California out of being the sole 
management and operator of two of our major laboratories. And 
so that caused us to separate our pension pools, but still 
there was a liability in order to make sure that the UC part of 
the pension pool that had former Department of Energy workers 
that it be maintained. And that maintenance gets spread across. 
Normally, pension costs and in the case of the NNSA we still 
have our pension costs as an indirect cost that gets attributed 
across because it is the cost of doing business, but because 
these were split out separately into this other pool, we had 
to--and the liability was in the couple hundred million dollar 
range, as you have described, we had to assign that 
responsibility to two particular program lines: one in the 
nonproliferation account based on the ratio of work that they 
had done there and the other in the weapons activities account. 
And that goes into describe why we had this hundred-plus 
liability in one program and this $75 million liability or so 
in the nonproliferation program.
    So that essentially is how that looks. You would not have 
normally seen kind of a specific call-out. Normally, you would 
not--normally it is in there, if you will, as an indirect cost. 
And the rest of the liability, of course, is in there as an 
indirect cost because we still have ongoing employees and we 
have employees that have retired outside of the UC system.
    Thank you, sir.
    Admiral Donald. Mr. Pastor.
    Mr. Pastor. Yes.
    Admiral Donald. Could I just go back to--no, it is just I 
wanted to loop back on a question you had asked me earlier 
about the environmental impact statement for the----
    Mr. Pastor. Right, in Idaho.
    Admiral Donald [continuing]. Idaho facility. Between now 
and the end of 2012, we will have completed the site selection 
and submitted the draft environmental impact statement for 
public comment. So we will be well into the impact statement by 
the end of fiscal year '12.
    And there was one other issue I just wanted to clarify. I 
misspoke when I mentioned the M290s, the number that it would 
take the shipping containers that we would take. On the 
Enterprise it takes 16--or, excuse me, it takes 16 shipping 
containers for Enterprise. We have bought or are buying a total 
of 25 of these shipping containers to just deal with the refuel 
handling for the aircraft fleet and the submarine fleet for the 
future of the force. If we were to have to task fuel from 
aircraft carriers at Idaho because the facility was not 
available, for each one of the Nimitz class that is nine 
shipping containers. So you would need nine of those to put on 
the rail side just to hold that fuel at $20 million apiece. So 
I wanted to make sure I got that correct.
    Mr. Pastor. Thank you.
    Mr. Frelinghuysen. I just want to get clarity on the 
payment of pensions for contractor employees. Why is it a 
responsibility of the nonproliferation program?
    Mr. D'Agostino. Because associated with the work that goes 
on at the UC laboratories, that had gone on at the UC 
laboratories, we felt that this was the right splitting up of 
liabilities between the two programs.
    Mr. Frelinghuysen. And heretofore it had been where?
    Mr. D'Agostino. Well, heretofore it had been part of our--
one of the indirect charges that get assigned to all of the 
programs lines. So about--so the majority of the costs--
normally we would not even be--we would not talk about this 
because the pension funds would be fully funded. And so they 
would be assigned, if you will, as part of an element of every 
dollar that gets spent goes to pay for, you know, the pensions 
and health care and things like that.
    Mr. Frelinghuysen. So we have more transparency.
    Mr. D'Agostino. Yes, sir, and in this case, because of the 
economic times, this has driven us to spend a lot more time in 
this area. In fact, I think that is actually trying to find the 
good out of a very challenging time. Because of the increased 
focus on the topic of pensions, the Department's CFO--chief 
financial officer--and the team there have spent a lot of time 
looking at are we reporting data consistently across all of our 
MNOs. And, you know, maybe at the time we were not and now we 
are. We are using the same terminology, so we have a much 
better sense and understanding of what goes on in that 
particular area.
    Mr. Frelinghuysen. And lastly, to Admiral Donald, the 
refueling of the nuclear prototype which is used as a training 
platform for the Navy's nuclear operators has been directly 
linked to the R&D efforts of the Ohio replacement. Can you 
explain to the Committee how these two programs are linked?
    Admiral Donald. Yes, sir. What we are going to do with the 
refueling of the prototype, just for context, what this really 
is is if you took the reactor plant and basically the engine 
room out of the Ohio-class ballistic missile submarine and put 
it ashore. That is what this is. It was built back in the late 
1970s really as the prototype of that ship.
    Mr. Frelinghuysen. You explained to me this is the updated 
version.
    Admiral Donald. That is what is there right now and it has 
got a nuclear reactor in it and it has been steaming and it is 
almost depleted of fuel. So when we go to refuel this, we are 
going to use technology, materials, and construction techniques 
to prove that we can manufacture this life-of-the-ship core in 
an affordable manner to prove that we can do that before we 
actually get into final production on the Ohio-class 
replacement core. So we will use materials, we will use 
production techniques, welding techniques, inspection 
techniques. All of that will go into building this core and it 
will go into the prototype, and then we will use that not only 
for R&D over the life of the really 20-year life of the 
platform, but it will also provide one-third of our training 
capacity for our Navy sailors that go out into the fleet.
    Mr. Frelinghuysen. So it is directly related to the Ohio 
replacement, but it also is there to maximize knowledge for 
every other----
    Admiral Donald. It is.
    Mr. Frelinghuysen [continuing]. Nuclear reactor----
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen [continuing]. That we have, whether it 
be, you know, aircraft carrier----
    Admiral Donald. Yes, sir.
    Mr. Frelinghuysen [continuing]. Or any of the other subs, 
so Sea Wolf and, you know, Virginia class, and so forth, right?
    Admiral Donald. Every one of our operators goes through our 
training program and will spend six months operating a live 
reactor. Mr. D'Agostino did it. I did it. Everyone will do 
that. This is one of the three that will remain to provide that 
critical training for our reactor operators. And I think you 
would be impressed if you walked out onboard a ship and you 
walk up to the reactor operator himself and say how old are 
you? And he will tell you he is 21 years old operating a 
nuclear reactor.
    Mr. Frelinghuysen. Well, you took me under the ice on the 
USS Annapolis and I was surprised how young they are.
    Admiral Donald. And they are really good.
    Mr. Frelinghuysen. And you have women in the submarine 
service now, too. I met--I am on the----
    Admiral Donald. They are heading that way.
    Mr. Frelinghuysen. Yeah, I am on the board of the Naval 
Academy, and I must say I met some very sharp young women who 
anticipate, I guess, being aboard some of our larger subs. And 
I can tell you they are highly qualified, highly interested, 
highly motivated. And it may have been a difficult cultural 
decision, but I think it is a good thing.
    Admiral Donald. Not difficult at all. In fact, the first 
group just graduated from nuclear power school a week ago.
    Mr. Frelinghuysen. Not difficult for me, but sometimes 
difficult for others. [Laughter.]
    And on that happy note, any further questions?
    Mr. Simpson. I think we better leave it there.
    Mr. Frelinghuysen. Thank you very much everybody.
    Voice. Thank you, Mr. Chairman.
    Mr. Frelinghuysen. We are adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                           W I T N E S S E S

                              ----------                              
                                                                   Page
Cook, Dr. D. L...................................................     1
D'Agostino, Thomas...............................................1, 127
Donald, Admiral K. H.............................................   127
Finan, Brig. Gen. S. E...........................................     1
Harrington, Anne.................................................   127

                                  <all>

</pre></body></html>
